<html>
<title> - HEARING ON H.R. 2376, THE NATIONAL FISH AND WILDLIFE FOUNDATION ESTABLISHMENT ACT AMENDMENTS OF 1997</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
    HEARING ON H.R. 2376, THE NATIONAL FISH AND WILDLIFE FOUNDATION 
                  ESTABLISHMENT ACT AMENDMENTS OF 1997

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                   SEPTEMBER 25, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-54

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 46-178 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GILCHREST, Maryland         SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                    Jean Flemma, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 25, 1997..................................     1

Statement of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     5
        Prepared statement of....................................     7

Statement of Witnesses:
    Adler, Jonathan, Director of Environmental Studies, 
      Competitive Enterprise Institute...........................    23
        Prepared statement of....................................    67
    Ahnert, Edward F., President, Exxon Education Foundation.....    13
        Prepared statement of....................................    34
    Clark, Jamie Rappaport, Director, U.S. Fish and Wildlife 
      Service....................................................     1
        Prepared statement of....................................    27
    Eno, Amos, Executive Director, National Fish and Wildlife 
      Foundation.................................................    10
        Prepared statement of....................................    40
    Fullwood, Charles R., North Carolina Wildlife Resources 
      Commission, prepared statement of..........................    83
    Glaser, Don, Executive Director, Western Water Policy Review 
      Advisory Commission........................................    15
        Prepared statement of....................................    62
    Hoover, Lois Van, Idaho Multiple Land Use Coalition..........    25
        Prepared statement of....................................    79
    Miller, William C., Jr., President, Malpai Borderlands Group.    21
        Prepared statement of....................................    37
    National Fish and Wildlife Foundation, Washington, DC, 
      prepared statement of......................................   130
    Sallabanks, Rex, Ph.D., Director, Sustainable Ecosystems 
      Institute, Meridian, Idaho, prepared statement of..........    39
    Taylor, Don R., Vice President, Sustainability and 
      Stewardship, Champion International Corporation............    12
        Prepared statement of....................................    36
    Taylor, Gary J., Legislative Director, International 
      Association of Fish and Wildlife Agencies..................    19
        Prepared statement of....................................    32
    Turnstone Ecological Research Associates, Ltd., Moscow, 
      Idaho, prepared statement of...............................    39
    Yozell, Sally, Deputy Assistant Secretary for Oceans and 
      Atmosphere, U.S. Department of Commerce....................     3
        Prepared statement of....................................    28

Additional material submitted:
    Text of H.R. 2376............................................    84
    Disclosure requirements......................................    93



    HEARING ON H.R. 2376, THE NATIONAL FISH AND WILDLIFE FOUNDATION 
                  ESTABLISHMENT ACT AMENDMENTS OF 1997

                              ----------                              


                      THURSDAY, SEPTEMBER 25, 1997

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:42 a.m., in 
room 1334, Longworth House Office Building, Hon. Jim Saxton 
(chairman of the Subcommittee) presiding.
    Mr. Saxton. [presiding] We are going to change the order, 
the sequence here. So if Ms. Clark and Sally Yozell, if you 
would take your places at the table, we would appreciate it.
    Welcome aboard, ladies. We are glad you are here. 
Unfortunately, we will likely be interrupted again. So we 
usually give a great deal of latitude with time, but I am 
afraid that for purposes of today, particularly as it relates 
to this issue, we are going to have to stick to the 5 minute 
rule.
    So, Ms. Clark, if you would like to go ahead as you see 
fit.

  STATEMENT OF JAMIE RAPPAPORT CLARK, DIRECTOR, U.S. FISH AND 
                        WILDLIFE SERVICE

    Ms. Clark. Thank you, Mr. Chairman, and good morning. I 
greatly appreciate the opportunity to appear before you today 
on H.R. 2376, the National Fish and Wildlife Foundation 
Improvement Act. The Foundation is a great friend and an asset 
to the service. It is an engine that powers many of our most 
important and successful partnerships.
    We strongly support enactment of H.R. 2376, but do have 
some suggestions for improvements. The Foundation has pioneered 
the concept of public-private conservation partnerships. This 
approach is now generally recognized as the most productive and 
cost effective approach to sustaining and enhancing our fish 
and wildlife resources. The Foundation has assembled an 
impressive expertise in this area. This expertise, coupled with 
the flexibility available to the Foundation as an entity 
outside of normal bureaucratic requirements gives it the tools 
to foster these partnerships in a wide variety of 
circumstances. The Foundation is especially effective in 
sparking cooperation in situations where a government agency 
might meet with skepticism or suspicion.
    The Foundation's contributions to the service have been 
many. We have provided extensive testimony on the Foundation's 
accomplishments during the last year's oversight hearing by 
this Subcommittee. So I won't attempt to repeat or duplicate 
what you will hear from following witnesses. Rather, I would 
like to focus on two areas where they have been trailblazers in 
assisting us on major priorities, assistance for our national 
wildlife refuges and conservation efforts on endangered 
species. The Subcommittee has been actively seeking to address 
the backlog in refuge operational and maintenance needs and I 
would like to state for the record how much we appreciate your 
efforts.
    One approach you have been taking is to encourage volunteer 
assistance for refuges. I want you to know that the Foundation 
has also been active in this approach, as they have provided a 
grant to the National Wildlife Refuge Association for 
development of the program to create and expand the Friends 
groups. The Refuge Friends have proven to be an invaluable 
source of additional refuge support in local financial and in-
kind support for refuge facilities and projects.
    In addition, the Subcommittee has worked for increased 
appropriations for refuge operations and maintenance. Beginning 
this year, the Foundation has joined the effort by initiating a 
grant program to help meet operational and maintenance needs at 
individual refuges. The Foundation has also been very 
successful in helping to unsnarl complex endangered species 
issues, and in the process, building bridges between the 
government and the private sector. For example, in Wisconsin, 
the Foundation has helped us bring the forest products industry 
together with the service and other Federal and State agencies 
to begin development of a state-wide habitat conservation plan 
for the endangered Karner Blue butterfly, whose habitat 
coincides with areas managed for timber production. The 
Foundation was able to raise $75,000 and combined with $30,000 
of their own funds, pay for several projects essential to the 
development of the HCP.
    This HCP in the process by which it was developed serve as 
a model for future cooperation in addressing complex endangered 
species issues. These projects and many others are testament to 
the unique and irreplaceable role that the Foundation plays in 
today's conservation efforts. They are the best kind of 
partner. They bring expertise, they bring experience, and they 
bring dollars.
    The Foundation has had an impressive record in leveraging 
Federal funds with private money. Since their inception, they 
have raised over $172 million in private sources. While the 
statute requires a one-to-one match, they have always sought a 
two-to-one ratio, and for several initiatives, have exceeded 
two-to one, not a bad return on our investment, Mr. Chairman.
    In order to continue these returns, the Foundation must 
have a continued access to sources of private funds. 
Principally, this access is provided through the members of the 
Foundation's board of directors. Therefore, we strongly support 
strengthening the Foundation's board of directors. A 
strengthened board should provide an additional fundraising 
capacity for the foundation and enhance its ability to support 
conservation initiatives. H.R. 2376 addresses this need by 
expanding the board from 15 to 22 members. While the 
administration can certainly support this proposal, discussions 
are ongoing among a variety of parties as to the best way to 
constitute such an expanded board.
    Finally, Mr. Chairman, one of the greatest strengths of the 
Foundation has been its ability to pull diverse partners 
together in support of fish and wildlife conservation projects. 
This includes many Federal agencies, as well as corporate and 
non-profit entities. It's vital to the continued success of 
this organization that it has a statutory authority and 
direction to work with a variety of Federal agencies. To that 
end, we suggest an amendment to recognize specifically that the 
Foundation may work with the Bureau of Land Management and the 
Bureau of Reclamation on fish and wildlife conservation issues.
    Again, we strongly support reauthorization of the National 
Fish and Wildlife Foundation, and urge your consideration of 
our suggested changes to H.R. 2376. This concludes my formal 
statement, Mr. Chairman. I would be pleased to respond to any 
questions.
    [The prepared statement of Ms. Clark may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much, Ms. Clark. We want to 
welcome you here, which I neglected to do at the beginning in 
our haste to get started. We are very pleased to have you. 
Obviously this is your first appearance as director. 
Congratulations, and welcome.
    Ms. Clark. Thanks so much. I appreciate it.
    Mr. Saxton. Ms. Yozell?

   STATEMENT OF SALLY YOZELL, DEPUTY ASSISTANT SECRETARY FOR 
       OCEANS AND ATMOSPHERE, U.S. DEPARTMENT OF COMMERCE

    Ms. Yozell. Good morning, Mr. Chairman, and Members of the 
Subcommittee. My name is Sally Yozell, Deputy Assistant 
Secretary for Oceans and Atmosphere at U.S. Department of 
Commerce. I am pleased to be here today on behalf of NOAA to 
highlight the agency's evolving relationship with the National 
Fish and Wildlife Foundation, and offer the agency's views on 
H.R. 2376, a bill to reauthorize the National Fish and Wildlife 
Foundation.
    The Foundation has been very successful and has produced 
demonstrable conservation results through private-public 
partnerships. What is attractive to NOAA is that many of the 
Foundation's projects take place at regional and local levels, 
where communities, businesses, civic and trade associations, 
government and non-government organizations and others have 
come together to complete a common goal, such as restoring 
damaged stream corridors to improve habitat for Pacific salmon, 
or assisting local economies in areas hard hit by the 
continuing New England fisheries prices.
    NOAA believes the Foundation is a unique and powerful tool 
and strongly supports its reauthorization. I would like to 
submit my full written statement for the record, and in my time 
remaining, summarize NOAA's growing relationship with the 
Foundation, and offer some minor recommendations to H.R. 2376, 
as drafted.
    NOAA has worked with the Foundation on a limited basis 
since 1992. The agency was added to the Foundation's statement 
of purpose during the 1995 reauthorization. In fiscal year 
1996, NOAA allocated $2.1 million in base appropriations to 
begin working closely with the Foundation to develop public-
private partnerships in 22 different project areas. I am very 
pleased to report that in the past year, the Foundation has 
found partners and over $1.5 million in private matching funds 
for approximately half of these projects.
    Projects with matching funds include restoring habitat for 
Pacific and Atlantic salmon, assessing options for managing 
harmful algal blooms, and improving local level monitoring and 
management of coral reefs. Rather than review all of NOAA's 
existing projects with the Foundation, I would like to submit 
for the record a list of the many projects that NOAA has 
undertaken in conjunction with the Foundation.
    NOAA is very interested in the future work with the 
Foundation. The Foundation continues to offer us unique 
mechanisms through which NOAA can participate with the private 
sector to accomplish goals beyond what is possible with NOAA's 
resources and capabilities if the agency acted alone. Because 
of this Subcommittee's strong interest in coral reef 
conservation and protection, I do want to emphasize that the 
Foundation has been particularly successful in supporting coral 
reef conservation projects. This is another area where 
significant future opportunities exist.
    In the past year, the Foundation matched $300,000 funds 
from NOAA with $200,000 in funds from private for its projects 
addressing coral reef conservation issues. Currently 15 
projects are underway to strengthen local level monitoring, 
education, management, and other elements of the U.S. Coral 
Reef Initiative in America Samoa, Hawaii, Guam, Northern 
Marianas, Puerto Rico, and the Virgin Islands. The success of 
these projects has helped us begin to identify the areas of 
interest and the types of projects best suited for the NOAA and 
Foundation to pursue in the future.
    Specifically, NOAA suggests that the Subcommittee consider 
using the Foundation and as an alternative to the Coral Reef 
Conservation Fund proposed in your bill, H.R. 2233. The 
Foundation has already established and can receive 
appropriations and/or private donations for coral reef 
conservation projects. As indicated in the September 16, 
Department of Commerce newsletter regarding H.R. 2233, NOAA 
strongly supports its general intent, but believes that 
Congress has already created a vehicle through the Foundation 
to accept private donations and Federal appropriations and to 
create public/private partnerships of the type described in the 
Coral Reef Conservation Act.
    Given NOAA's growing and successful relationship with the 
Foundation, we encourage the Subcommittee to seriously consider 
using it in this role instead of proceeding with a new fund as 
established in H.R. 2233.
    Also of interest to the Subcommittee, NOAA has already 
begun discussions with the Foundation on possible private-
public partnerships to support a national public awareness 
campaign for the world's ocean as part of the 1998 
international Year of the Ocean.
    Before closing, allow me to offer a couple of 
recommendations to clarify and improve upon H.R. 2376. One of 
the limitations we found in working on the Foundation, is that 
unlike the U.S. Fish and Wildlife Service, who receives the 
bulk of its funds for work with the Foundation through direct 
appropriations, NOAA funds Foundation projects on an ad hoc 
basis, thus making it difficult for the Foundation to plan for 
and provide the staff and resources nec-

essary to fully pursue projects. While NOAA has been able to 
allocate funds on a limited basis, it remains questionable from 
year to year what funding NOAA will make available to joint 
Foundation activities.
    Secondly, NOAA generally supports the amendments in H.R. 
2376 that would increase the size of the Foundation's board and 
expand the board's composition to include four members 
knowledgeable and experienced in ocean and coastal resource 
conservation. However, NOAA suggests that the Under Secretary 
for Oceans and Atmosphere be listed as the ex officio member on 
the Foundation's board and not the assistant administrator for 
fisheries, as is currently listed in the bill.
    In conclusion, the Foundation is a unique mechanism and an 
important tool for NOAA to help build the public-private 
partnerships and leverage limited Federal dollars. We believe 
we are well on our way to identifying with Foundation areas of 
significant opportunities where real results will be achieved 
through creative partnerships for the private sector.
    That ends my testimony. I will be happy to answer any 
questions the Subcommittee may have.
    [The prepared statement of Ms. Yozell may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much. With your permission, or 
without it, either one, we're going to move to Mrs. Chenoweth.
    Mrs. Chenoweth, would you like to go ahead?

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. Thank you, Mr. Chairman. Mr. Chairman and 
Members of the Subcommittee, I appreciate this opportunity to 
testify today on Chairman Saxton's bill H.R. 2376 which 
reauthorizes the National Fish and Wildlife Foundation. I also 
thank you for inviting Lois Van Hoover of the Idaho Multiple 
Land Use Coalition in Idaho to testify. I apologize for not 
giving the Subcommittee a copy of my statement ahead of time, 
but I chaired an 8-hour hearing yesterday on the American 
Heritage Rivers Initiative that ended after 8 last night.
    Last year, Mr. Chairman, I testified at your oversight 
hearing on the Foundation and cited some of its controversial 
grants affecting Idaho. Since that statement is already part of 
your official printed record, I will try to cover new ground 
and make recommendations regarding Chairman Saxton's bill.
    In 1984, Congress originally provided the Foundation with 
$100,000 annually in Federal funds, which according to a former 
Interior Secretary Manuel Lujan and others, it was intended as 
a one-time seed money grant from the U.S. Congress. Currently, 
the Foundation receives $20 million in Federal funds to 
increase from a one-time authorization and appropriation of 
$100,000 to currently $20 million in Federal funds. H.R. 2376 
would authorize $25 million annually for the next 3 years, for 
a total of $75 million.
    Let me say at the outset that the Foundation does fund some 
very excellent conservation projects. You will hear about some 
of them today. But unfortunately, several of the most divisive 
resource issues promoted by preservationists in Idaho have been 
par-

tially funded by this foundation. Idaho's entire delegation, 
Governor Phil Batt, Attorney General Al Lance are strongly 
opposed to the introduction of grizzly bears in our State, but 
unfortunately, the Foundation for years has provided grants to 
researchers and others to bring back this creature which 
threatens human life in my State and wherever it exists.
    Likewise, Idaho's Congressional delegation, including a 
Member of this Committee, its Governor and legislature have 
repeatedly fought efforts to introduce the gray wolf into our 
State. Unfortunately, the Foundation has provided at least 
$140,000 in grants to reintroduce this creature to the Northern 
Rockies. Clearly, Congress did not conduct proper oversight in 
these grants or they may not have occurred.
    Regarding Congressional oversight, I tried to get the 
salaries last year as a Member of Congress of the Foundation's 
employees. I was told that information on individual salaries 
was confidential. I am astounded that a Member of Congress 
cannot receive this information from a group that receives $20 
million annually in Federal funds. Mr. Chairman, perhaps you 
and your staff may be able to obtain this information before 
you proceed with the markup on H.R. 2376.
    However, let us focus on the future of the Foundation 
today. Jonathan Adler of the Competitive Enterprise Institute, 
who will testify later at this hearing, aptly compares the 
Foundation with the National Endowment for the Arts. This is an 
excellent analogy. He states that both entities have funded 
very worthwhile projects and also some not so worthwhile 
projects. Both have funded things that are unobjectionable and 
both have funded things that are extremely controversial. 
Finally, there are reasons to question the continued Federal 
funding of both endeavors, a step that the House has taken in 
the case of the NEA.
    Despite the Foundation's funding of many worthy projects, 
they spend millions of dollars funding some of the most 
strident environmental groups such as the Defenders of 
Wildlife, National Audubon Society, and the Environmental 
Defense Fund. These groups and others regularly engage in 
lobbying and litigation that is harmful to Idaho and other 
States. Although the Foundation may have restrictions against 
its grants being used for lobbying and litigation, money given 
to non-profit groups is fungible. By giving grant money to one 
group for a specific effort, that group is able to free up 
other money for other efforts that may include lobbying and 
litigation. Mr. Adler lists several examples of this, including 
a landmark case in Idaho that I discussed last year, a case 
that shut down almost all of our national forests. It involved 
$143,500 in Foundation grants to the Pacific Rivers Council 
which later was involved in litigation over salmon that 
affected most of the forests in my State.
    My recommendations for H.R. 2376 are as follows. No. 1, 
phaseout Federal funding over three years, as the House did 
with the NEA. The Foundation has a tremendous ability to raise 
private funds, as illustrated by grants of over $1 million from 
Exxon, Ducks Unlimited, and Unocal Corporation. Moreover, the 
Subcommittee should examine the status of other federally 
chartered foundations like the National Park Foundation and the 
National Fallen Firefighters Foundation, which I understand now 
receive little or no Federal funds. These are foundations which 
honor our firefighters who lost their lives in the line of duty 
on public lands.
    How can I ask a millworker in Orofino or St. Maries, Idaho, 
making $9.50 an hour to help provide $25 million for a 
foundation which has the ability to finance itself. Explicitly 
prohibit the Foundation from making grants for introducing 
grizzly bears and gray wolves. That's my second recommendation.
    Chairman Saxton chaired a hearing in Gillette, Wyoming, 
last year on managing predators, and I believe heard first hand 
the USDA's animal damage control is already over burdened with 
existing predators, and it can ill afford to control new large 
ones like grizzly bears and gray wolves.
    No. 3, work with Representatives Istook and McIntosh to 
strengthen section 5 of H.R. 2376. I commend you for addressing 
the issue of lobbying and litigation by grantees. However, this 
is a complex issue as money to non-profits is fungible, Mr. 
Chairman. I believe this section should be closely scrutinized 
by those who have worked on this issue extensively.
    Mr. Chairman, I thank you again for the opportunity to 
testify. I look forward to working with you on H.R. 2376 as it 
advances through the Committee process.
    [The prepared statement of Ms. Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    Mr. Chairman, and Members of the Subcommittee, I appreciate 
the opportunity to testify today on Chairman Saxton's bill, 
H.R. 2376, which reauthorizes the National Fish and Wildlife 
Foundation. I also thank you for inviting Lois Van Hoover of 
the Idaho Multiple Land Use Coalition to testify. I apologize 
for not giving the Subcommittee a copy of my statement in 
advance but I chaired an 8-hour yesterday on the American 
Heritage Rivers Initiative that ended at 8 p.m.
    Last year I testified at your oversight hearing on the 
Foundation and cited some of its controversial grants affecting 
Idaho. Since that statement is already part of your official 
printed record, I will try to cover new ground and make 
recommendations regarding Chairman Saxton's bill.
    In 1984 Congress originally provided the Foundation with 
$100,000 annually in Federal funds, which according to former 
Interior Secretary Manuel Lujan and others, was intended as one 
time seed money. Currently, the Foundation receives over $20 
million in Federal funds. H.R. 2376 would authorize $25 million 
annually for the next three years.
    Let me say at the outset that the Foundation does fund some 
excellent conservation projects and you will hear about some of 
them today. Unfortunately, several of the most divisive 
resource issues promoted by preservationists in Idaho have been 
partially funded by the Foundation.
    Idaho's entire congressional delegation, Governor Phil 
Batt, and Attorney General Alan Lance are strongly opposed to 
introducing grizzly bears in our state. Unfortunately, the 
Foundation for years has provided grants to researchers and 
others to bring back this creature which threatens human life 
and private property.
    Likewise, Idaho's Congressional delegation, Governor and 
legislature have repeatedly fought efforts to introduce gray 
wolves into our state. Unfortunately, the Foundation has 
provided at least $140,000 in grants to reintroduce this 
creature in the Northern Rockies. Clearly, Congress did not 
conduct proper oversight or these grants would not have 
occurred.
    Regarding congressional oversight, I tried to get the 
salaries of Foundation's employees and was told that 
information on individual salaries was confidential. I am 
astounded that a Member of Congress cannot receive this 
information from a group that receives $20 million annually in 
Federal funds. Mr. Chairman, perhaps you and your staff may be 
able to obtain this information before you proceed with a mark-
up on H.R. 2376.
    However, let us focus on the future of the Foundation 
today. Jonathan Adler of the Competitive Enterprise Institute, 
who will testify later at this hearing, aptly compares the 
Foundation with the National Endowments for the Arts (NEA). 
This is an excellent analogy. He states that, ``Both entities 
have funded worthwhile projects and not-so worthwhile projects; 
both have funded things that are unobjectionable, and both have 
funded things that are extremely controversial. Finally, there 
are reasons to question the continued Federal funding of both 
endeavors--a step the House has taken in the case of the NEA.''
    Despite the Foundation's funding of many worthy projects, 
they spend millions of dollars funding some of the most 
strident environmental groups such as Defenders of Wildlife, 
National Audubon Society and the Environmental Defense Fund. 
These groups and others regularly engage in lobbying and 
litigation that is harmful to Idaho.
    Although the Foundation may have restrictions against its 
grants being used for lobbying and litigation, money given to 
non-profit groups is tangible. By giving grant moneys to one 
group for a specific effort, that group is able to free up 
money for other efforts that may include lobbying and 
litigation. Mr. Adler lists several examples of this including 
a landmark case in Idaho, that I discussed last year. It 
involved $143,500 in Foundation grants to the Pacific Rivers 
Council which later was involved in litigation over salmon that 
threatened to halt logging, grazing, and other activities on 
several Idaho national forests in 1995 several weeks after I 
first came to Congress.
    My recommendations for H.R. 2376 are as follows:

    1. Phase out Federal funding over three years as the House 
did with the NEA. The Foundation has a tremendous ability to 
raise private funds as illustrated by grants of over $1 million 
from Exxon, Duck Unlimited and Unocal Corp. Moreover, the 
Subcommittee should examine the status of other federally-
chartered foundations like the National Park Foundation and the 
National Fallen Firefighters Foundation which I understand now 
receive little or no Federal funds. How can I ask a millworker 
in Orofino or St. Maries, Idaho making $9.50 an hour to help 
provide $20 million for a Foundation which has the ability to 
finance itself.
    2. Explicitly prohibit the Foundation from making grants 
for introducing grizzly bears and gray wolves. Chairman Saxton 
chaired a hearing in Gillette, Wyoming last year on managing 
predators and I believe heard first-hand that USDA's Animal 
Damage Control is already overburdened with existing predators 
and can ill-afford to control new large ones like grizzly bears 
and gray wolves.
    3. Work with Representatives Istook and McIntosh to 
strengthen Section 5 of H.R. 2376. I commend you for addressing 
the issue of lobbying and litigation by grantees. However, this 
is a complex issue as money to non-profits is fungible. I 
believe this section should be closely scrutinized by those who 
have worked on this issue extensively.
    Mr. Chairman, I thank you again for the opportunity to 
testify and look forward to working with you on H.R. 2376 as it 
advances through the Committee process.

    Mr. Saxton. Thank you, Mrs. Chenoweth, for a very 
articulate testimony.
    Mr. Peterson, do you have some questions?
    Mr. Peterson. Just one quick one. What level of Federal 
support, this is to Ms. Clark, what level of Federal support 
did the Foundation receive in 1997? Which agencies provided the 
money, and how much private money did you raise?
    Ms. Clark. I can only speak to the Fish and Wildlife 
Service funding. We have provided $5 million in direct 
appropriations to the Foundation.
    Mr. Peterson. You do not know what the Foundation received 
in Federal money collectively?
    Ms. Clark. I would say it's somewhere in the neighborhood 
of $16 to $18 million, but we have other witnesses here that 
can probably ballpark it closer for you.
    Mr. Peterson. Do you have any idea what they raised in 
private funds?
    Ms. Clark. Very significant above that. I know on our 
projects, their partnership leveraging. Well, first of all let 
me separate it out. The Foundation itself and the operating 
part of the Foundation is entirely on private funds. They take 
our dollars and our dollars aren't necessarily tied to Fish and 
Wildlife Service projects. Our dollars are used to promote fish 
and wildlife conservation initiatives for a whole host of 
partners. They have leveraged those dollars with additional 
partnership dollars with other Federal dollars, multifold. But 
I don't have the direct statistics here.
    Mr. Peterson. Just one quick question. It's obvious from 
the testimony that you have helped fund the reintroduction of 
the gray wolves and the grizzly bears. Do you really think that 
should go forward without more input from local areas where 
people live? I mean if you lived in an area where they are 
introducing grizzly, I mean don't you think the local folk 
should have more--it appears there's broad opposition, but it 
appears that the Fish and Wildlife Service is unconcerned about 
that. Is that fair?
    Ms. Clark. No, Congressman. I don't think it's fair to 
suggest that the Fish and Wildlife Service is unconcerned or 
not paying attention to this issue. In fact, indeed we are. We 
have released a draft DEIS or draft environmental impact 
statement and a draft rulemaking to reintroduce grizzly bears 
into the Bitterroot area. In fact, have engaged in what we 
consider to be an unprecedented level of public involvement. We 
have not made a final decision yet. We are engaged in a very 
open public process with a great kind of broad-based collection 
of citizens to evaluate the opportunity for reintroduction in 
support of recovery.
    Mr. Peterson. I live in the east, but in a very wooded 
area, forested area. I would personally be concerned if grizzly 
bears were reintroduced there, for the safety of my family and 
my friends and visitors. I just think we're really on a 
slippery slope with those creatures. That's my own personal 
view. I wanted to share that with you.
    Mr. Saxton. Thank you, Mr. Peterson.
    Ms. Clark, the Foundation has suggested that a self-
perpetuating board, one appointed by the board members 
themselves would create freedom from political pressure. It is 
my understanding that the Justice Department may have some 
questions about the constitutionality of a federally funded 
entity with a self-appointed board. Has the Fish and Wildlife 
Service requested legal interpretation from the Justice 
Department on this question?
    Ms. Clark. Yes, Mr. Chairman, we have. In fact, we have 
been involved in extensive discussions with the Justice 
Department on this very issue. Certainly while we support and 
expanded board, the Justice Department's opinion, and I'm 
certainly not a lawyer, indicate that it would be a violation 
of the appointments clause. We are continuing to look for ways 
to support this effort.
    Mr. Saxton. Thank you very much. I appreciate the 
articulate testimony of all three witnesses. We will move onto 
panel No. 3 actually at this time, made up of Mr. Amos Eno, 
executive director of the National Fish and Wildlife 
Foundation, Mr. Gary Taylor, legislative director of the 
International Association of Fish and Wildlife Agencies, Mr. 
Edward Ahnert, president of Exxon Education Foundation, Mr. Don 
Glaser, executive director of the Western Water Policy Review 
Advisory Commission.
    Those of you who have been observing the activities on 
Capitol Hill for the last few days undoubtedly know that we are 
in a situation where we are having a series of votes which 
interrupt us frequently. Hopefully we will not be interrupted, 
but because of the necessity of leaving here for 15 or 20 
minutes of a half hour at a time, if you could keep your 
testimony to the 5 minute allotted period of time, it would be 
most appreciated.
    Mr. Eno, if you would like to begin.

 STATEMENT OF AMOS ENO, EXECUTIVE DIRECTOR, NATIONAL FISH AND 
                      WILDLIFE FOUNDATION

    Mr. Eno. Mr. Chairman, thank you for convening this hearing 
to consider changes to the authorization of the National Fish 
and Wildlife Foundation to provide for a reauthorization. I ask 
that my full statement be made part of the hearing record. I'll 
summarize my comments to review how the Foundation operates and 
address our accomplishments.
    Mr. Chairman, this year this Nation celebrated the 50th 
anniversary of the Marshall Plan. In 1997, the National Fish 
and Wildlife Foundation celebrated its greatest accomplishments 
by any measure imaginable, awarding 460 grants totaling over 
$60 million in on-the-ground investments. But perhaps most 
significantly, we have become a living, breathing analog for 
the Marshall Plan for conservation in the United States. But 
what made the Marshall Plan such an unexpected success? 
According to Lance Morrow, it was no giveaway program. 
Countries that wanted financial support had to come up with 
feasible plans for economic recovery. The aid had a fixed time 
limit and a fixed cost ceiling. It would be administered by an 
American businessman, not a bureaucrat. There was plenty of 
accountability.
    The Foundation uses this very same formula. Our grants are 
not a giveaway. Our grants require a match of at least one 
dollar for every Federal dollar allocated. We're achieving a 
match of better than two-to-one consistently. Our grants have a 
fixed time limit, usually a year for performance, cost ceilings 
and restrictions on overhead. We manage them like businessmen, 
not bureaucrats. Our projects originate at the local level just 
as in the Marshall Plan. Additionally, we provide full 
accountability and cover all, and this is very important, we 
cover all our operating costs with privately raised funds, 
unlike the NEA.
    Let's look at what the Foundation has accomplished. We work 
with a wide range of partners, including 84 partners with the 
forest products industry. This chart graphically illustrates 
that partnership. The primary focus of these partnerships is to 
protect fish and wildlife resources, while allowing timber 
harvests to continue. With planning, cooperation and 
understanding of our resources, wildlife can be protected and 
timber development can continue without litigation and without 
regulation. You will hear from one of our forest products 
company partners in a moment.
    The Foundation has been a leading proponent and participant 
in multi-faceted efforts to recover Atlantic and Pacific 
salmon. The Atlantic Salmon Federation and the State 
Department, as partners we are able to buy out the Greenland 
Salmon Fishery for 2 years. We directed money to identify long-
term economic alternatives for fishermen in Greenland. We 
provided a grant to start SHARE, a salmon habitat and river 
enhancement project involving Champion and Georgia Pacific in 
implementing habitat improvements for Atlantic salmon in Maine. 
In collaboration with the Fish and Wildlife Service, our recent 
grant of $100,000 lead to funding of a $600,000 pot of money 
for habitat improvements on the seven Maine rivers proposed for 
listing for Atlantic salmon. We believe that the projects we 
have put in place are tangible evidence, sufficient tangible 
evidence to prevent listing of the Atlantic salmon.
    Meanwhile, on the west coast, our grants to the Oregon 
Wildlife Heritage Foundation are one of the reasons the coho 
salmon was not listed in the State of Oregon. For years, we 
have maintained that to effectively preserve difficult 
endangered species, we must go beyond the confines of 
government regulations and entice the active participation, and 
more importantly, the open wallets of corporate America. No 
program better exemplifies this approach than our partnership 
with Exxon and Save the Tiger Fund.
    Exxon has committed a minimum of a million dollars for 5 
years, and in fact, in the first 2 years of the program, Exxon, 
its foreign affiliates, stockholders, credit card holders, have 
contributed more than $3.4 million for tiger conservation, 
dwarfing the $200,000 a year appropriated for Interiors 
program.
    Turning to the legislation before the Subcommittee, I again 
commend the Chairman and Ranking Member for taking the lead in 
your sponsorship of H.R. 2376. My prepared statement addresses 
several suggestions we have regarding board appointments and 
expanding our relationship with Federal agencies. Mr. Chairman, 
we want to build on our successes. We are currently working 
with NOAA to implement its Year of the Ocean program. This is 
consistent with a resolution you and Congressman Abercrombie 
have introduced to assist NOAA in bringing about a better 
public understanding for the conservation of our ocean 
resources.
    We are helping the Fish and Wildlife Service to leverage 
the fees they charge for the importation of sport-hunted polar 
bear trophies from Canada, to expand their conservation efforts 
in Alaska and Russia. We are also exploring ways the Foundation 
can work with the Alaska Sealife Center to conserve the 
resources of Prince William Sound. Other investments under 
consideration, coral reef conservation, apoxi zones in the Gulf 
of Mexico, seafood processing, the pfisteria outbreak in 
Chesapeake Bay.
    Mr. Chairman, in summary, whether its conservation 
education, professional training, fisheries, wildlife, 
migratory birds or habitat restoration, the Foundation is ready 
to broaden our formal partnerships to embrace the Bureau of 
Land Management and the Bureau of Reclamation in order to 
expand our ability to leverage Federal funds and create new 
partnerships at the local and community level. Inclusion of BLM 
in the Bureau of Reclamation will improve Federal agency 
cooperation with States and the private sector for the 
advancement of fish, wildlife, plant and other resources.
    Thank you for the opportunity to present this testimony. 
I'll gladly answer questions.
    [The prepared statement of Mr. Eno may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much.
    Mr. Taylor?

      STATEMENT OF GARY J. TAYLOR, LEGISLATIVE DIRECTOR, 
    INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Taylor. Thank you, Mr. Chairman, for the opportunity to 
appear before you today to share with you the association's 
perspectives on the National Fish and Wildlife Foundation. I am 
Gary Taylor, legislative director of the association. I bring 
to you today the firm and solid support of our association for 
the National Fish and Wildlife Foundation and in general for 
H.R. 2376, providing for its reauthorization.
    As you are aware, Mr. Chairman, all 50 State fish and 
wildlife agencies are members of our association. The 
association has a longstanding interest and involvement in the 
Foundation and similar endeavors to combine private and 
industry money to help stretch Federal and State dollars to 
accomplish much needed fish and wildlife conservation work on 
the ground. We would also encourage you to continue to work 
with the Foundation to consider the merits of some of the 
recommendations that they have offered for further improvements 
to H.R. 2376.
    As you have heard already, the Foundation is known for 
forging effective partnerships between the public and private 
sectors to provide on the ground solutions to some fundamental 
natural resources problems. These cooperative endeavors not 
only help get much needed work done, but provide continuing 
cooperation between groups that may traditionally have even 
been competitive or even on opposing sides of various issues.
    The Foundation invests in solutions to natural resource 
problems by awarding challenge grants to combine resources from 
Foundation partnerships, thus undergird effective conservation 
projects. In the burdened and cash strapped world of State fish 
and wildlife agencies, this represents a crucially important 
avenue for getting important conservation work done that 
unlikely would be done without the assistance of the 
Foundation.
    By our estimate, about a third of the Foundation grants 
involve our State fish and wildlife agencies as either a 
funding partner or recipient to provide on-the-ground solutions 
to fish and wildlife conservation issues in the States. The 
association enthusiastically supports leveraging funds to 
increase the buying power of decreasing conservation dollars. 
Quite simply, it makes good business sense and it's good for 
conservation as well.
    As you are well aware, among the many fine examples of the 
Foundation's effectiveness, has been its work with State fish 
and wildlife agencies in the North American Waterfowl 
Management plan, and then in the Partners in Flight endeavor, 
both of which are significant international conservation 
efforts which the Foundation was instrumental in leveraging 
funds to power these conservation efforts. I detail other 
efforts that the Foundation has been involved in in my written 
statement.
    All of this, I believe, clearly points out that the 
Foundation is not only effective, but innovative, aggressive in 
its fundraising efforts, and simply well worth the money. It is 
a shining example of Fed-

eral, State, private cooperative programs that works and should 
be emulated.
    There are a couple of ways that we would suggest that the 
Foundation could improve its effectiveness. First, by 
continuing to appoint experienced leaders, including a State 
fish and wildlife agency head to the board. Second, through 
additional appropriations for the Foundation. H.R. 2376 can 
facilitate addressing both of these solutions.
    The association believes that the inclusion of a State 
director on the Foundation's board is imperative. State 
agencies are at the forefront of fish and wildlife conservation 
through solving problems on the ground, and are usually aware 
of needs long before the private sector becomes aware of a 
specific problem. Having an agency director on the board will 
thus allow the Foundation to continue to be at the cutting edge 
of fish and wildlife resource management issues. Certainly with 
the expanded membership of the board of directors from 15 to 
22, as contemplated in your bill, the appointment of a State 
fish and wildlife director should be given strong consideration 
by the secretary. We would encourage your support for that, Mr. 
Chairman.
    Also, to improve effectiveness, we believe the Foundation, 
if given more appropriations will continue to multiply Federal 
dollars with the private sector dollars to improve the Nation's 
fish and wildlife resource conservation. Increasing the 
capacity for partnerships is a sound fiscal investment. We 
enthusiastically support such increases and have consistently 
testified favorably before the Appropriations committees.
    We would support the Foundation's request that H.R. 2376 
expand over four years the authorization for appropriations to 
$40 million to enable them to achieve further conservation 
successes. With that, Mr. Chairman, I would again like to thank 
you for the opportunity to be here, and would be happy to 
address any questions.
    [The prepared statement of Mr. Taylor may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much.
    Mr. Ahnert?

   STATEMENT OF EDWARD F. AHNERT, PRESIDENT, EXXON EDUCATION 
                           FOUNDATION

    Mr. Ahnert. Mr. Chairman, thank you for inviting me here 
today to offer testimony on behalf of Exxon Corporation about 
our numerous partnerships with the National Fish and Wildlife 
Foundation, and why we think this is a particularly effective 
organization.
    Exxon has been making grants for environmental conservation 
for over a quarter of a century. We have enjoyed a close 
working relationship with the National Fish and Wildlife 
Foundation since 1991. Since 1995, the majority of our work 
with the Foundation has been through the Save the Tiger Fund, 
which we jointly established to channel both Exxon and public 
dollars into an international effort to save tigers in the 
wild.
    As you know, the tiger has symbolized Exxon and its 
products for most of this century. The idea for the Save the 
Tiger Fund arose as our awareness grew of the threats to the 
survival of tigers in the wild. At the turn of the century, 
there were about 100,000 tigers roaming across the Asian 
continent. Today experts estimate that there are fewer than 
7,500 tigers surviving in the wild. They have been victims of 
poaching and habitat loss. Some experts believe that the wild 
tiger could be extinct within a few decades.
    However, in 1995, we consulted with tiger conservation 
experts around the world, who indicated that an infusion of 
funds into thoughtful, well-designed projects could save the 
tiger from extinction in the wild. In cooperation with the 
National Fish and Wildlife Foundation, we set up a framework to 
bring Exxon's and the public's resources to initiatives 
selected by a council of wildlife conservation and tiger 
experts. Almost exactly two years ago today, our company 
pledged $5 million over 5 years to tiger conservation. Together 
with the National Fish and Wildlife Foundation we launched the 
Save the Tiger Fund.
    To date, the Fund has raised over $3.5 million, of which 
more than $500,000 has been contributed by the public, mostly 
customers and shareholders of Exxon. None of this money has 
come from the government. Forty one projects have been funded, 
most of which are based in tiger range countries. You see the 
map on your left shows those projects that we funded. These 
have been reviewed and approved by the Save the Tiger Fund 
Council, which represents international conservation 
organizations, the U.S. Fish and Wildlife Service, zoos, and 
research facilities. The National Fish and Wildlife Foundation 
solicits the project proposals, stewards the grants, and 
handles accounting for the Fund.
    We are starting to see some signs of success. The 
population of Siberian tigers in far eastern Russia appears to 
have stabilized, and may be increasing slightly. In Royal 
Chitwan National Park in Nepal, habitat is being added and the 
critical elements for the survival of endangered animal 
populations have been put in place, including such things as 
buffer zones between populated and wildlife areas, and engaged 
community, and a mechanism for the local population to benefit 
from ecotourism. Projects in India and far eastern Russia have 
helped to reduce poaching by providing accommodations, 
vehicles, and uniforms for field rangers.
    Apart from the Save the Tiger Fund, since 1991, we have 
contributed over $680,000 to 15 national fish and wildlife 
projects. Those are shown on the map on your right, the western 
hemisphere map. These projects include, but I'm not going to 
give you a comprehensive list, a study of the effects of 
habitat depletion in Central America on North American 
migratory birds, with Cornell University's laboratory of 
ornithology, a project to monitor forest use by migratory 
songbirds, a multi-national study of the humpback whale, a 
study of shorebirds in Alaska conducted by the Copper River 
Delta Institute, matching funds for summer jobs for minority 
college students in Federal and State environmental programs, 
and a wetlands restoration project in Texas. This is just a 
sample of the projects that we have worked with the National 
Fish and Wildlife Foundation.
    We selected the Foundation as a partner for the Save the 
Tiger Fund because of this long term relationship in certain 
specific qualities which I would like to enumerate in closing. 
First, the Foundation has built an impressive network of 
conservation experts and organizations. By so doing, it brings 
a broad international spectrum of knowledge and resources to 
environmental projects that most other groups can't offer. This 
has been an important asset for the Save the Tiger Fund 
program.
    Secondly, the Foundation provides a forum where business, 
government, and non-profit organizations can work together 
harmoniously on conservation projects. By acknowledging that 
human activity and preservation of the environment have to 
coexist, it operates in an area of shared values and on strong 
middle ground. It is an approach that we are comfortable with 
and one that allows the application of funds from a wide 
variety of sources.
    Mr. Chairman, thank you for inviting me. I'll be happy to 
answer questions.
    [The prepared statement of Mr. Ahnert may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much.
    Mr. Glaser?

  STATEMENT OF DON GLASER, EXECUTIVE DIRECTOR, WESTERN WATER 
               POLICY REVIEW ADVISORY COMMISSION

    Mr. Glaser. Mr. Chairman, Members of the Committee, thank 
you for the opportunity to testify on the reauthorization of 
the National Fish and Wildlife Foundation. I have submitted my 
full comments for the record and would like to make just a few 
brief comments, oral comments today. I will be speaking from my 
background of having worked over 20 years within the Department 
of Interior, serving as the deputy commissioner for the Bureau 
of Reclamation, and also as a State director for the Bureau of 
Land Management in Colorado.
    Last year I left the Federal Government as a career 
employee and began a one-year effort as the executive director 
to a Presidential commission looking at western water issues 
and the role of Federal agencies in western water. Throughout 
my 25 year career in western natural resources, I have observed 
what many have observed. Resource issues are best resolved at 
the local level led by local consensus groups. There are 
literally thousands of examples of locally driven collaborative 
efforts that are working to heal local relationships in the 
natural resources they care about. These groups need access to 
small amounts of money to participate in these efforts. The 
Foundation is one source of money to local efforts to help them 
address their issues in their local communities. Partners in 
these efforts who benefit from the Foundation funding are 
diverse and often involve Federal and State and local 
governments, commodity interests, and local environmental 
groups. These efforts result in direct improvements on the 
ground. But more than that, they lead to improved relationships 
between these groups at the local level.
    As important as the grant money is to these local efforts, 
the Foundation brings credibility to their process. The 
confidence that money will be spent well, on the ground, 
resulting in improvements to natural resources. It is also 
important that the Foundation will support, not control their 
efforts. For this reason, the Foundation has been asked to 
participate in many activities across the West. The California 
Bay Delta Accords, CALFED process, is one of these.
    The Foundation has been asked to help administer a portion 
of the contracts and grants activities, particularly smaller 
contracts and grants for three different contributing parties 
to the CALFED process. They are the California Urban Water 
agencies, the State of California, and the Federal Government 
through the Bureau of Reclamation. I have been retained by the 
Foundation to assist in negotiation and administration of these 
contracts.
    In my meetings with the respective parties across 
California, they sought the Foundation's involvement because it 
adds value rather than money to their process. Their biggest 
concern in California is that the money that they bring to the 
table will be spent on the ground and not be eaten up through 
administrative costs and inefficiencies. The Foundation has a 
proven record for getting on-the-ground results with minimal 
administrative costs. In the case of CALFED, this will be 
between 3 and 5 percent.
    In meeting with a broad range of California interests, they 
are genuinely pleased with the Foundation's willingness to lend 
a hand to their effort. Anything that the Congress can do to 
make the Foundation more effective during reauthorization will 
be greatly appreciated by many diverse interests across the 
West.
    To that end, action to make the Fish and Wildlife 
Foundation a foundation for the Bureau of Land Management and 
for the Bureau of Reclamation and to authorize a larger 
partially self-perpetuating board will significantly add to 
their effectiveness.
    Mr. Chairman, that concludes my oral comments today. I 
would answer any questions of the Committee. I thank you very 
much for this opportunity to speak to you today.
    [The prepared statement of Mr. Glaser may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much, Mr. Glaser.
    I have just one question. Mr. Eno, in the bill we have 
proposed to repeal the authority of the Foundation to condemn 
land and authority that only government entities currently 
hold. In your testimony, you state that the Foundation has 
never used its authority, but you still wish to retain it. Can 
you explain why?
    Mr. Eno. Mr. Chairman, largely because we had indications 
from a number of prospective donors that this is a vitally 
important provision, particularly for the deeding of 
conservation easements on critical riparian lands in the West 
and other important wildlife areas.
    A lot of conservation donors want to be sure that if they 
give an easement, those lands are protected from subsequent 
actions at the State or local level.
    I was in Jackson, Wyoming, at the National Elk Refuge in 
July, and met with three different landowners who were 
contemplating deeding easements on their ranches for 
conservation purposes, but only would do so if there was the 
possibility of preventing State and local government 
condemnation later.
    Mr. Saxton. I don't understand. Could you try that again?
    Mr. Eno. One area, well one example where--our statement 
actually is inaccurate. We have used that in one instance on 
the Beaver Kill River in New York. The Beaver Kill is the 
premier trout stream in eastern North America. Lawrence 
Rockefeller was working on a development, limited housing 
development and wanted to protect the entire riparian area of 
the river, much of which he had purchased. He gave us an 
easement specifically so that no subsequent actions by the 
State of New York could be taken that would adversely impact 
those lands.
    Mr. Saxton. So you are saying, I think you are saying that 
people who become involved in the program are more likely to 
come involved in the program even though if you hold the right 
to condemn land, even though you seldom, almost never use it.
    Mr. Eno. Mr. Chairman, there are a number of conservation 
buyers. We are dealing with a very recent phenomena in terms of 
the sophistication, broad application of conservation 
easements. I mean they didn't really exist as implements just 
as recently as 10 years ago. A lot of people are now interested 
in acquiring lands privately, deeding their interests, as they 
do their estates, to make sure that those interests are held in 
conservation purposes. One of their greatest fears is that 
local governments at the State and local level might 
subsequently come in, want to put in a road or want to push 
development of those lands. So if the easement is protected 
through us, it would prevent subsequent development.
    Mr. Miller. If I might, Mr. Chairman. You in fact shield 
that land against condemnation?
    Mr. Eno. That's correct. We do not have any kind of----
    Mr. Miller. Until such time as it is put in permanent 
conservation programs?
    Mr. Eno. That is correct.
    Mr. Miller. So an owner can grant to you an interest. That 
interest is shielded against State action and what have you 
until such time as a permanent conservation arrangement is 
worked out.
    Mr. Eno. Exactly. Basically the provision gives us the 
premature protection of a national wildlife refuge for an 
easement. It has that level of Federal protection.
    Mr. Miller. It's not you. You are not exercising 
condemnation rights, you are shielding people against.
    Mr. Eno. This is total voluntary action by private 
landowners who want the protection of the Federal Government 
from subsequent actions at a local or State level that would 
undermine their investment.
    The second point, Mr. Chairman, is we don't hold those 
easements. We have almost in every instance rolled it over to a 
State or a conservation group.
    Mr. Saxton. Thank you. Mr. Miller, do you have any 
questions?
    Mr. Miller. Just two quick questions. First on the question 
of the Tiger Fund. I didn't quite understand. The Foundation 
participates in this, but according to your testimony, Mr. 
Ahnert, they are not using the taxpayer portions of their 
funding to participate?
    Mr. Ahnert. That is correct, Congressman. The Save the 
Tiger Fund money is all donated either by Exxon Corporation, 
other corporations, or the public.
    Mr. Miller. But the Foundation is a repository for that. I 
mean people can make the contribution through the Foundation to 
that, but you are not using the contributions of the Federal 
Government for that purpose?
    Mr. Ahnert. I think that Mr. Eno can speak for the 
Foundation.
    Mr. Eno. Let me respond. We made several initial 
investments in the Siberian tiger program with Federal dollars. 
It was those investments I think that were part of the 
attraction of Exxon becoming a partner with us. Subsequently, 
we're managing the portfolio of projects and the bulk of the 
money is contributed money by Exxon and private individuals. In 
the last year, the Fish and Wildlife Service, for reasons of 
efficiency, has indicated they want to run their $200,000 
through us as a combined pot.
    Mr. Miller. OK. That's helpful. One last, let me just--Mr. 
Glaser, unfortunately we have a vote on, but one, let me thank 
you for your work on the commission. Second, if you could just 
explain again why the stakeholders want the Foundation and you 
involved here, because I think it's kind of an important 
communications device that we lose sometimes in the discussion 
of the Foundation.
    Mr. Glaser. Thank you, Congressman Miller. Yes, I'll try to 
do that. This year there is going to be approximately $180 
million spent on restoration efforts in the Sacramento-San 
Joaquin Delta area. The biggest concern that people have in 
that area is that this money be spent effectively. Their 
biggest fear is that it will not, and at the end of the year, 
they will not have real restoration efforts on the ground.
    There is a limit in proposition 204 on the amount of 
administrative fee that can go toward administering these 
moneys. Federal, State governments are always not the most 
efficient. They are particularly not efficient at managing 
small grants.
    Mr. Miller. You don't have to rub it in here.
    [Laughter.]
    Mr. Glaser. I stand in stead for the government. I served 
for 25 years in that capacity. But they are not effective 
administering small grants and small contracts. They are just 
not. Folks have looked to the Foundation to come in and take 
these small grants, small contract responsibilities on because 
the Foundation is very efficient at doing that. They have a 
very high track record of results on the ground. So they are 
willing to pay the Foundation a management fee, a nominal 
management fee, to administer not the Foundation's money, but 
voluntary money that's being brought to the table by the 
California Urban Water agencies, $30 million, a portion of 
that, the proposition 204 money, which is the people's money of 
California, and Federal money coming through the Bureau of 
Reclamation's budget for the CALFED initiative. They are 
willing to pay the Foundation to administer those activities 
because they have confidence they will get results on the 
ground, and they will do it as efficiently as anybody out 
there.
    Mr. Miller. Thank you. Thank you again for your 
involvement.
    Mr. Chairman, let me just--I wasn't here for opening 
statements, but I just want to say that I really strongly 
support the work that the Foundation has done. I think this is 
really one of our success stories in the Congress in creating 
the Foundation. Those who have been involved in it know its 
track record of attracting people who otherwise might not come 
to the table to discuss various conservation programs, who 
aren't necessarily interested in doing business with the 
government or have been burned by doing that or whatever those 
circumstances are, but the Foundation has allowed a whole 
series of conversations and actions to take place around 
conservation that I'm not sure otherwise would have happened or 
would have happened on a timely basis. I hope that we will be 
able to pass the legislation and do no harm to the Foundation. 
Thank you. Thank you very much for your time and your being 
here today.
    Mr. Saxton. Thank you very much. As you can see, we have a 
vote in progress. Let me ask unanimous consent that we submit 
questions in writing and if you would be so kind as to respond 
to those in as prompt order as you can. Thank you very much for 
being here.
    When we return, we'll proceed to our fourth panel, which is 
made up of Mr. Donald Taylor, vice president of sustainability 
and stewardship of Champion International Corporation, Mr. 
William Miller, president of Malpai Borderlands Group, Mr. 
Jonathan Adler, director of environmental studies, Competitive 
Enterprise Institute, and Ms. Lois Van Hoover, Idaho Multiple 
Land Use Coalition. If you folks would take your places during 
the break.
    Let me also ask unanimous consent at this point that all 
Members be permitted to include their statements for the 
record.
    [Recess.]
    Mr. Saxton. Well, the good news is that we have completed 
the vote on another motion to adjourn. We defeated the motion. 
We make this decision a number of times each day these days, so 
we apologize. We are expecting another vote in about 20 
minutes, so if we can proceed.
    Mr. Taylor, you may begin at your leisure.

STATEMENT OF DON R. TAYLOR, VICE PRESIDENT, SUSTAINABILITY AND 
        STEWARDSHIP, CHAMPION INTERNATIONAL CORPORATION

    Mr. Taylor. Mr. Chairman and Members of the Subcommittee, 
we appreciate this opportunity to offer testimony concerning 
reauthorization of the National Fish and Wildlife Foundation, 
H.R. 2376. My name is Don Taylor. I am vice president of 
sustainability and stewardship for Champion International. 
Champion is one of the Nation's largest manufacturers of pulp 
and paper and forest products, owning more than 5.3 million 
acres of forest land in 17 States.
    My current responsibilities include management of forest 
related environmental issues. Most recently, well I say over 
the last 30 years, I have spent my career in forest management 
operations throughout the company. Champion has had a long and 
productive relationship with the National Fish and Wildlife 
Foundation that has allowed our company to participate in many 
beneficial environmental projects. I would just like to share a 
few of those with you today.
    Champion joined the Foundation and Tennessee Technical 
University to conduct a study in the mountains of eastern 
Tennessee to evaluate the feasibility, relative cost, and 
effectiveness of different aquatic survey methods. We feel it 
is important to know the status of all biological resources 
that occur on our property. This study not only added to the 
available science and information base, but it also helped to 
develop cost effective methods that landowners can apply in 
their own management efforts. It's just one example of the 
Foundation working with private landowners, providing practical 
conservation practices.
    Another such tool can be found in a program created in 
Alabama. Champion and the Foundation sought to provide a common 
sense user-friendly information directly to those who need it 
most, those being private logging contractors and foresters 
working with private landowners. To achieve this goal, a 
resource guide was created along with the Fish and Wildlife 
Foundation, small enough to fit in your shirt pocket. The guide 
identifies listed species in the State and provides necessary 
forest management considerations. It is successful because it 
is free, No. 1. Then the technical and legal jargon that often 
served to frighten and confuse private landowners is not there. 
It's simple. It has pictures, and people can easily identify 
endangered species.
    Just last week, we released a similar guide for Tennessee. 
Again, with the Foundation's help, like this field guide the 
goal is simple, to put usable information in the hands of those 
people who are most likely to encounter listed species on a 
daily basis. We plan to produce a similar guide for each of the 
17 States in which we operate. Taking this approach, we are 
seeking to involve all concerned citizens in the protection of 
species.
    Our success with the Foundation has encouraged a number of 
other agencies and conservation organizations to join us in 
that effort to produce those guides. We have a low-tech 
approach to endangered species identification and protection 
that is building bridges rather than regulatory barriers.
    This cooperation is best illustrated by Champion's 
coordination of an industry-wide effort to foster private 
landowner cooperation for the migratory songbirds, first 
advocated by the Foundation through the Partners in Flight 
program. The effort has led to 13 forest products companies, 
representing approximately 35 million acres of private forest 
lands to join the Foundation in bird conservation.
    Lastly, I want to share with the Committee what Champion 
believes is one of the most promising models for conservation 
anywhere in the Nation, already mentioned by Amos. The project 
SHARE in Maine. Project SHARE, which stands for Salmon Habitat 
and River Enhancement was started 3 years ago as an alternative 
to the normal gridlock that often results from the proposed 
listing a new species under the Endangered Species Act.
    In this case, the U.S. Fish and Wildlife Service and the 
National Marine Fisheries Service were considering a petition 
to list Atlantic Salmon as threatened or endangered throughout 
all or a portion of its range. While some of the advocates for 
the listing saw a new tool to stop otherwise legitimate land 
management, private landowners and sportsmen saw the threats of 
increased management cost, declines in property values, and 
regulatory burdens.
    Project SHARE was formed by Champion and two other forest 
products companies with extensive holdings in the prime salmon 
habitat down in Downeast Maine. Let me be clear on this. Our 
goal was not to form a coalition to oppose the listing, but 
rather to create a coalition to address voluntary habitat 
restoration and management. Our belief was simple enough. By 
supporting the State and Federal agencies whose jurisdiction is 
the protection of species, we could share ideas and 
alternatives to the normal regulatory procedures and approaches 
that follow species listing. This synergy would give the 
responsible agencies more options in developing flexible 
constructive beneficial plans. So that is the project SHARE.
    There's many other examples that are in the testimony. What 
I would like to close with is just one theme. Please continue 
the support of the Fish and Wildlife Foundation. We would ask 
one other thing, is that in your bill it addresses various 
administrative improvements. We would like to comment on one 
aspect of the measurer in closing. It seems if you would 
eliminate as much as possible the political tie that the 
Foundation board has with each administration, then continuity, 
neutrality and assurance of tenure for the board members would 
be provided that may assist with overall administration of the 
Foundation.
    We just think that we think the Foundation does a lot of 
good. We are very pleased to support that reauthorization.
    [The prepared statement of Mr. Taylor may be found at end 
of hearing.]
    Mr. Saxton. Thank you, Mr. Taylor. I apologize. We're going 
to go vote again. Thank you.
    [Recess.]
    Mr. Saxton. Mr. Miller, you may proceed. Sorry about that 
again.

    STATEMENT OF WILLIAM C. MILLER, JR., PRESIDENT, MALPAI 
                       BORDERLANDS GROUP

    Mr. Miller. Thank you, Mr. Chairman. It gives me great 
honor and privilege to be sitting here before you as a 
Committee to speak on behalf of the National Fish and Wildlife 
Foundation. The facts that I know about the Fish and Wildlife 
Foundation, whose address is 1120 Connecticut Avenue, N.W., 
Suite 900, Washington, DC.
    The Malpai Borderlands Group, a private non-profit 
organization of ranchers and conservationists received a 
challenge grant from the National Fish and Wildlife Foundation 
of $76,000 which our group was required to match with 
additional private funding to raise in the amount of $304,000. 
It became quickly apparent to our board that we had a 
tremendous amount of work ahead of us to meet the challenge. 
However, we knew our program for conservation and economic 
stability in more than 800,000 acres in Arizona and New Mexico 
would require substantial new funding. The early support of the 
National Fish and Wildlife Foundation gave our small new 
organization the confidence and the financial push that were 
critical to our new environment.
    Our mission statement tells our story so well. Our goal is 
to restore and maintain the natural processes that create and 
protect a healthy unfragmented landscape to support a diverse 
flourishing community of human, plant, and animal life in our 
Borderland region. Together, we will accomplish this by working 
to encourage profitable ranching and other traditional 
livelihoods which will sustain the open space nature of our 
lands for generations to come.
    The amazing part of this process was the fact that the 
National Fish and Wildlife would look at a bunch of cowboys, 
listen to what they had to say, and believe that we could 
proceed into the next century with our ambitious goals. The 
judgment of the National Fish and Wildlife Foundation paid off 
as we found working with a wonderful group of people was an 
easy process and we actually were able to raise the matching 
funds. They have guided us through our continued problems and 
challenges, and have been a main catalyst in starting our work 
on the land.
    The Malpai Group has successfully completed two prescribed 
burns across multiple ownership. The first was a major 
undertaking, as it was partially in a wilderness study area on 
Bureau of Land Management land. It also affected four private 
landowners, the U.S. Forest Service, two State land 
departments. The prescription for this burn was completed in 
less than a year. The second burn was done on 12,500 acres, 
which affected three private landowners, Arizona State Land 
Department, and the U.S. Forest Service. It took us three years 
to overcome the necessary regulations to do this burn. It was 
very successful and with the process behind us, we are working 
toward a programmatic plan to do both prescribed burning and 
work with natural ignited fires. The Malpai Group paid for the 
State and private land costs of burning this fire.
    With the sighting of the Mexican Jaguar in our Borderlands 
region, the work to protect this now listed species has opened 
a new level of involvement with ranchers in the region. The 
Malpai Group has established a depredation fund to pay for 
livestock which may be lost to the Jaguar. A working 
relationship with scientists in Mexico is evolving. The project 
is now involving us in conservation work in two countries. This 
is a new venture and we are hoping to influence additional 
conservation work in Mexico.
    What we have found is that it is amazing what can happen 
when a group of land managers sits down with agency people and 
a few environmentalists join in and talk about allowing natural 
fire to burn in a large unfragmented landscape. With funding, 
hard work, and open minds, we are working to have a proud place 
for the future generations in the Borderland region in 
southeast Arizona, southwest New Mexico, and Mexico. With many 
projects completed, it is apparent that an alternative to 
litigation and the ability to spend money on the ground is the 
best process in conserving our natural resources for the 
future.
    The National Fish and Wildlife Foundation is to be 
congratulated for joining in as partners with private 
landowners like us. There are many other conservation 
opportunities across the West and beyond which can become 
realities once private landowners have confidence to take up 
the work with their own hand. We have found the National Fish 
and Wildlife Foundation to be good people to work with in our 
region, and feel that others will find them to be the same in 
their area of the country.
    I thank you again. My hat is off to you folks on the 
Committee and the people with the National Fish and Wildlife 
Foundation. I didn't introduce myself. I am William C., Bill 
Miller, Jr., president of the Malpai Borderlands Group, a 
fourth generation rancher in Rodeo, New Mexico. Thank you.
    [The prepared statement of Mr. Miller may be found at end 
of hearing.]
    Mr. Saxton. Mr. Miller, thank you very much. We appreciate 
your being here.
    Mr. Adler?

STATEMENT OF JONATHAN ADLER, DIRECTOR OF ENVIRONMENTAL STUDIES, 
                COMPETITIVE ENTERPRISE INSTITUTE

    Mr. Adler. Thank you, Mr. Chairman. My name is Jonathan 
Adler. I am director of environmental studies at the 
Competitive Enterprise Institute here in Washington, DC. I 
appreciate the opportunity to come before this Committee today 
and deliver testimony on this issue.
    I would like to summarize my written statement, which I 
guess is somewhat lengthy, and I would hope that the written 
statement be included in the record. Certainly I'll be open to 
questions on any part of my testimony after my----
    Mr. Saxton. All statements will be included in the record. 
Thank you very much.
    Mr. Adler. Thank you, Mr. Chairman. As you know, when the 
Foundation was created in 1984, it received only $100,000 per 
year, a mere pittance of what it now receives at taxpayer 
expense. Today the Foundation is a substantial recipient of 
taxpayer funds, from both State and Federal Governments. In the 
previous fiscal year, the Foundation received over $21 million 
from Federal Government agencies, and at least $1 more from 
States. As you know, H.R. 2376 would authorize $25 million per 
year for the next three fiscal years. The Foundation has asked 
for an even larger authorization.
    The issue for this Committee is not whether the Foundation 
supports worthwhile projects. It's not whether it was wise for 
the Federal Government to create the Foundation. It's not even 
whether or not the Foundation should exist or not. The issue is 
whether the Foundation should continue to receive an annual 
appropriation of taxpayer dollars, whether this Congress should 
continue to appropriate millions of dollars every year to a 
specific private charity that among other things engages in 
politically oriented and controversial grantmaking. If so, what 
conditions should be placed upon the Foundation's acceptance of 
Federal funds.
    There is no doubt the Foundation has supported and will 
continue to support many worthwhile conservation projects. We 
have heard about some of them today. My organization through a 
project called the Center for Private Conservation has even 
documented the work of private organizations like the American 
Chestnut Foundation and Chesapeake Wildlife Heritage that are 
engaged in admirable conservation activities and have received 
support from the Foundation. That the Foundation often does 
good things does not however mean that it is entitled to 
receive annual appropriations of millions in taxpayer dollars, 
nor does it mean that the Foundation should not be the subject 
of strict Congressional oversight so long as it does receive 
such funds.
    In some respects, the Foundation could be seen as the 
environmental equivalent of the National Endowment for the 
Arts. I think this is an appropriate analogy. Both were created 
to address the private sector's perceived failure to adequately 
fund something of national concern, art in the case of NEA, 
conservation in the case of the Foundation. The motivating 
theory in both cases is that the Federal Government are 
providing seed money to facilitate the proliferation of desired 
activities. Both entities have funded worthwhile projects and 
not so worthwhile projects. Both have funded things that are 
unobjectionable and both have funded things that are extremely 
controversial.
    I believe that there are reasons to question the continued 
Federal funding of both endeavors, a step that the House is 
taking in the case of the NEA and should with the Foundation as 
well. I would like to point out that the Marshall Plan did not 
get Federal funding forever.
    While the Foundation does support valuable efforts, there 
are several reasons why this Committee should consider phasing 
out the Foundation's funding authorization. Among the most 
significant is evidence of the Foundation's political activity 
and its support of ideological activist groups, an issue that 
this Committee has heard plenty about before.
    Just earlier this week, I spoke with a landowner in 
Riverside County, California, who has a very different view of 
the NCCP that the Foundation in one of its recent reports takes 
credit for helping develop. This landowner and many of his 
neighbors feel that the NCCP is not a landowner friendly 
approach to conservation. Yet that is an issue that is very 
politically controversial in southern California. A taxpayer-
funded entity should not be in the position of promoting that 
or any other controversial approach to an important public 
policy issue.
    I also think it's important for this Committee to recognize 
that private conservation efforts and corporate philanthropic 
grants are not in need of direct financial support or indirect 
financial support from the Federal Government. Cutting off 
Federal appropriations for the Foundation would not force the 
Foundation to close its doors. It may force it to reorient some 
priorities and to focus its money on the most valuable grants, 
but the Foundation would continue to play a valuable role in 
promoting conservation, even if it did not receive taxpayer 
funds.
    My recommendation would be for Congress to follow the lead 
that was taken with the NEA by the House and begin to phaseout 
Federal funding for the Foundation over the next several years. 
This would provide the Foundation with the opportunity to 
prepare itself for life without Federal appropriations and 
relieve taxpayers of another small but significant claim on 
their hard-earned resources. In this day and age, there is 
simply no reason why the Foundation and similar organizations 
must be funded at taxpayer expense.
    While we move to phaseout Federal appropriations for the 
Foundation, this Committee should take additional steps beyond 
those contained in H.R. 2376 to ensure that the Foundation does 
not support controversial programs or organizations engaged in 
political advocacy. The provisions in H.R. 2376 are welcomed, 
particularly the explicit limits on the Foundation's activities 
contained in section five, but I believe they do not go far 
enough. I would suggest the Foundation not be allowed to give 
money to any organization that does not agree to similar 
restrictions on its own advocacy efforts, restrictions similar 
to those that will be applied to the Foundation under section 
5. Such restrictions should not be hindrance to valuable 
conservation efforts, but they will prevent the use of Federal 
money, directly or indirectly to promote political advocacy.
    The Foundation has a role to play in America to continue in 
conservation efforts. I applaud those projects that they have 
supported that are providing valuable support to conservation 
efforts. I simply believe that it should pursue this role 
without the support of Federal taxpayers. The sooner the 
Foundation joins the ranks of truly private conservation 
organizations, the more valuable its contribution to finding 
real and lasting solutions to conservation problems will be. 
Thank you for your time. I will answer any questions you may 
have.
    [The prepared statement of Mr. Adler may be found at end of 
hearing.]
    Mr. Saxton. Mr. Adler, thank you very much. We'll move 
quickly to Ms. Van Hoover.

STATEMENT OF LOIS VAN HOOVER, IDAHO MULTIPLE LAND USE COALITION

    Ms. Van Hoover. Thank you. Good morning. My name is Lois 
Van Hoover. I represent the Idaho Multiple Land Use Coalition. 
Additionally, I serve on the board of directors of the Idaho 
Council on Industry and the Environment, the Independent 
Miners, the Alliance of Independent Miners, and am a co-founder 
of a new organization called the Idaho Natural Resource 
Advocacy Center.
    I am honored to be here today to testify on such an 
important subject as the National Fish and Wildlife Foundation. 
We all understand the benefit of consensus in protecting the 
environment. While I understand the logic for establishing the 
Foundation originally, at the amount of appropriations today, I 
question if Congress is practicing fiduciary responsibility to 
the taxpayer when they fund a private non-profit foundation 
with tax dollars, a foundation run by a board of directors 
appointed by the Secretary of Interior.
    Even though the Foundation has done some good projects, it 
has used tax dollars and it is not responsive to the American 
taxpayer. It is not bound by either the Freedom of Information 
Act or NEPA. According to the National Fish and Wildlife 
Foundation, the basic criteria for receiving a grant are one, 
the proposed project must promote fish and wildlife 
conservation. Two, the proposed project must build consensus 
and act as a model for dealing with difficult conservation 
issues. The project must leverage available Federal funds. 
Finally, the project must meet the technical standards of peer 
review.
    However, the historic performance of the Foundation leads 
to some criticism, especially in the State of Idaho. Funding a 
Federal agency to do special projects rather makes a mockery of 
the authorization and appropriation process. As an individual, 
I would be hard pressed to justify over $200,000 in bonuses to 
10 Federal employees, including Jack Ward Thomas, who was chief 
of the Forest Service at the time. Two State employees, five 
U.S. Fish and Wildlife Service employees, four Forest Service 
employees and one other person received $15,000 to $20,000 each 
as a bonus simply for doing their jobs. This is as much money 
as some people in my hometown make in one year. These do not 
fit into the criteria mentioned above or the critical on-the-
ground projects.
    Groups like the Pacific River Council, which received many 
grants from the Foundation have certainly caused my home State 
of Idaho undue grief with third party lawsuits. The Foundation 
has given grants for projects related to grizzly bear recovery, 
even though the Idaho Governor, the State legislature, and the 
entire Idaho Congressional delegation are opposed to the 
reintroduction of grizzly bears in Idaho.
    I know the Foundation says that they have curtailed grants 
to groups that lobby and litigate. But Mr. Chairman, please 
remember that the grants only free up other moneys of these 
organizations so that they can lobby and litigate.
    We are a little confused as to how the groups are chosen 
that get the grants, especially when an organization with the 
credentials of the Idaho Council on Industry and the 
Environment has tried repeatedly to contact the Foundation. 
They haven't even bothered to respond.
    Not so long ago, I was in the office of the director of the 
Idaho Department of Fish and Game with a group for a meeting. 
Mr. Connelly, the director, was complaining about the 
Foundation. It seems the Idaho Fish and Game Department was 
building a nature center. The U.S. Forest Service, Payette 
National Forest wanted to give the Department $39,000, but 
there was no legal way to do that. The Forest Service found a 
way to give the moneys to U.S. Fish and Wildlife Service, who 
in turn channeled the money to the Foundation. The Foundation 
then cut the check to the Idaho Fish and Game Department. The 
reason Mr. Connelly was angry was the $6,000 handling fee the 
Foundation had charged. My only response to Mr. Connelly, 
because I was shocked at what he said, is that legal or are you 
washing money.
    Even with the Foundation's achievements, there is still an 
air of impropriety around the Foundation, especially in Idaho. 
In a time of short budget, a large national deficit, perhaps 
Congress could practice its fiduciary responsibility to the 
American taxpayer by dissolving the Foundation. They could even 
return some funds to the taxpayer, or at least use the money 
for legitimate functions of the Forest Service which in my 
State complains that it does not have enough personnel to 
operate the campgrounds or fix the forest roads in my county. 
The Foundation could then continue its work at the private 
level. Thank you.
    [The prepared statement of Ms. Van Hoover may be found at 
end of hearing.]
    Mr. Saxton. Ms. Van Hoover, thank you very much. This has 
been an opportunity this morning for us to exchange views. I 
know there are many different opinions and viewpoints on the 
reauthorization of this commission, foundation I should say. In 
any event, I wish there were more time to explore these issues 
with you today. However, you should know that we will be 
talking extensively over the next month or so relative to this 
issue. Before the bill which I introduce is marked up, there 
will undoubtedly be a number of changes to it.
    So thank you all for being here today. We appreciate your 
forbearance with our schedule. We look forward to talking with 
you in the future. Thank you very much.
    [Whereupon, at 12:28 p.m., the Subcommittee was adjourned, 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
 Statement of Jamie Rappaport Clark, Director, United States Fish and 
              Wildlife Service, Department of the Interior

    Mr. Chairman, I greatly appreciate the opportunity to 
appear before you today on H.R. 2376, the National Fish and 
Wildlife Foundation Improvement Act. The Foundation is a great 
friend and asset to the Service and is an engine that powers 
many of our most important and successful partnerships. I am 
very pleased that my first appearance before the Subcommittee 
as Director of the Fish and Wildlife Service is in support of 
the Foundation.
    We strongly support enactment of H.R. 2376, but do have 
some suggestions for improvements.
    The National Fish and Wildlife Foundation has pioneered the 
concept of public-private conservation partnerships. This 
approach is now generally recognized as the most productive and 
cost-effective approach to sustaining and enhancing our fish 
and wildlife resources. The Foundation has assembled impressive 
expertise in this area. This expertise, coupled with the 
flexibility available to the Foundation as an entity outside of 
normal bureaucratic requirements, gives it the tools to foster 
these partnerships in a wide variety of circumstances.
    The Foundation's contributions to the Fish and Wildlife 
Service have been many, and I will not attempt to detail all of 
them, as you will hear these directly from following witnesses. 
Rather, I will focus on two areas where they have been 
trailblazers in assisting the Fish and Wildlife Service on 
major priorities: assistance for national wildlife refuges, and 
conservation efforts for endangered species.
    The Subcommittee has been actively seeking to address the 
backlog in refuge operational and maintenance needs, and I want 
to state for the record how much we appreciate your efforts. 
One approach you have taken is to encourage volunteer 
assistance for refuges. The Subcommittee has held a hearing on 
refuge volunteers, and has reported Chairman Saxton's bill, 
H.R. 1856, which will streamline the process for refuge 
managers to accept donations, and formally recognize the role 
of refuge ``Friends'' or partners groups. I want you to know 
that the foundation has also been active in this approach, as 
they provided a grant to the national Wildlife Refuge 
Association for development of the program for creating and 
expanding these groups. The refuge ``Friends'' are providing 
invaluable sources of additional refuge support and local 
financial and in-kind support for refuge facilities and 
projects.
    In addition, Chairman Saxton and other members of the 
Subcommittee have actively and successfully worked for 
increased appropriations for refuge operations and maintenance. 
The Foundation has joined in as well by initiating a grant 
program to help alleviate unmet operational and maintenance 
needs at individual refuges, beginning this year.
    The Foundation has also been very successful in helping to 
unsnarl complex endangered species issues, in the process 
building bridges between the government and the private sector. 
For example, in Wisconsin the Foundation has helped bring the 
forest products industry together with the Service and other 
Federal and State agencies to begin development of a state-wide 
Habitat Conservation Plan (HCP) for the endangered Karner Blue 
butterfly, whose habitat coincides with areas used by the 
timber industry. The Foundation was able to raise $75,000 of 
industry money, and, combined with $30,000 of their own funds, 
pay for several projects essential to the development of the 
HCP. This HCP and the process by which it was developed should 
serve as a model for future Federal-State-private sector 
cooperation in addressing endangered species issues.
    The limiting factor in these and all of the other valuable 
projects the Foundation has underway is one familiar to us 
all--lack of money. We believe there are two approaches 
necessary to increase the resources available to the 
Foundation.
    First, while we recognize that this issue cannot be fully 
addressed by appropriated funds, we recommend that the 
authorization ceiling be retained at $25 million annually, as 
provided in H.R. 2376.
    The Foundation has an impressive record in leveraging 
Federal funds with private money. Since their inception, they 
have raised over $172 million in private money. While the 
statute requires a one-to-one match, they have always sought a 
2 to 1 ratio, and for several initiatives, they have exceeded 
2-1. Based on this record, we believe that continuation of the 
current authorization levels is fully justified.
    Secondly, we support the concept contained in H.R. 2376 of 
expanding the Foundation's Board of Directors. One of the 
expectations for the Board members for such a group is that 
they would contribute to fundraising efforts for the 
organization. This is especially significant for the Foundation 
since all of its annual operating expenses must come from 
donated funds. An expanded Board should provide an additional 
fundraising capacity for the Foundation, and we strongly 
support this. H.R. 2376 addresses this need by expanding the 
Board from 15 to 22 members. While the Administration can 
certainly support that proposal, discussions are ongoing among 
a variety of parties as to the best way to constitute such an 
expanded Board.
    Finally, one of the greatest strengths of the Foundation 
has been its ability pull diverse partners together in support 
of fish and wildlife conservation projects. This includes many 
Federal agencies, as well as corporate and non-profit entities. 
It is vital to the continued success of this organization that 
it has the statutory authority and direction to work with a 
variety of Federal agencies. To this end, we suggest an 
amendment to the purposes section of the Fish and Wildlife 
Foundation Establishment Act. A copy of the amendment is 
attached to my statement.
    Again, we strongly support reauthorization of the National 
Fish and Wildlife Foundation, and urge your consideration of 
our suggested changes to H.R. 2376.
    This concludes my formal statement. I would be pleased to 
respond to any questions you may have.

ADMINISTRATION AMENDMENT TO H.R. 2376

    Redesignate the existing sections 2 through 6 of the bill as 
sections 3 through 7, respectively, and insert the following:
        Sec. 2. PURPOSES OF THE FOUNDATION
        Section 2(b)(1) (16 U.S.C. 3701(b)(1) is amended to read as 
        follows:

          ``(1) to encourage, accept and administer private gifts of 
        property for the benefit of, or in connection with, the 
        activities of the United States Fish and Wildlife Service, the 
        Bureau of Land Management and the Bureau of Reclamation, and 
        the National Oceanic and Atmospheric Administration in the 
        Department of Commerce, to further the conservation and 
        management of fish, wildlife and plant resources.''
                                ------                                


 Statement of Sally Yozell, Deputy Assistant Secretary for Oceans and 
                Atmosphere, U.S. Department of Commerce

    Mr. Chairman and Members of the Subcommittee, I am Sally 
Yozell, Deputy Assistant Secretary for Oceans and Atmosphere 
with the National Oceanic and Atmospheric Administration, U.S. 
Department of Commerce. I am pleased to be here today to 
highlight NOAA's evolving relationship with the National Fish 
and Wildlife Foundation, and offer NOAA's views on bill H.R. 
2376 to reauthorize the National Fish and Wildlife Foundation 
Establishment Act.
    The National Fish and Wildlife Foundation (hereafter 
referred to as ``the Foundation'') is a nonprofit organization 
established by Congress in 1984 to support sustainable 
solutions for the conservation and management of fish, 
wildlife, plants and their respective habitats. The Foundation 
pursues its mission by forging financial and operational 
partnerships between Federal agencies and the private sector, 
and awarding challenge grants using federally appropriated 
funds to match private-sector donations.
    The Foundation has been very successful and produced 
demonstrable conservation results through these private-public 
partnerships. Since its founding, the Foundation has used 
approximately $94 million in Federal funds to leverage a total 
of $268 million and over 2200 grants for conservation projects. 
Many of these projects take place at regional and local scales 
where communities, businesses, civic and trade associations, 
non-governmental organizations, government agencies and others 
have come together to complete a common goal--such as restoring 
damaged stream corridors to improve habitat for Pacific salmon 
rebuilding local economies in areas hit hard by the continuing 
New England fisheries crisis, or producing educational 
materials informing visitors to Hawaiian coral reefs how to be 
proper stewards of these ``Rainforests Of The Sea.''
    NOAA believes the Foundation is a unique and powerful tool. 
NOAA strongly supports the Foundation's reauthorization. I 
would like to summarize NOAA's growing relationship with the 
Foundation and recommend some minor changes to the bill as 
drafted.
    NOAA has worked with the Foundation on a limited basis 
since 1992. NOAA was added to the Foundation's statement of 
purpose during the Foundation's 1995 reauthorization. Much has 
been learned through this experience. We have learned that some 
projects do not attract donor interest; others have been very 
successful. These areas will provide many opportunities for 
future collaborations between NOAA and the Foundation.
    NOAA is very interested in future work with the Foundation 
for several reasons. First, the Foundation has been working on 
issues of importance to NOAA for many years through several of 
the Foundation's major initiative areas including the Fisheries 
Conservation and Management Initiative, and the Wildlife and 
Habitat Man-

agement Initiative. Second, the demand for the Foundation 
continues to increase, especially for topics that relate to 
NOAA's interests such as marine fisheries, coral reefs, coastal 
habitat restoration and other parts of NOAA's environmental 
stewardship mission. These factors indicate that the Foundation 
has the demonstrated knowledge and ability to form successful 
private-public partnerships in these areas, and that the 
private sector and other organizations recognize and support 
the Foundation's ability to leverage Federal dollars with 
private matching funds for conservation achievements. The 
Foundation is the unique mechanism through which NOAA as a 
Federal agency can participate with the private sector to 
accomplish goals beyond what is possible with NOAA's resources 
and capabilities if acting alone.
    In fiscal year 1996 NOAA allocated $2.1 million in base 
appropriations to begin working closely with the Foundation to 
develop public-private partnerships in 22 different project 
areas. I am very pleased to report that in the past year the 
Foundation has found partners and over $1.5 million in private 
matching funds for approximately half of these projects. The 
projects with matching funds are restoring habitat for Pacific 
and Atlantic salmon, training graduate students to help control 
nonindigenous species introductions, assessing options for 
managing harmful algal blooms, improving local-level monitoring 
and management of coral reefs, and testing the use of 
sophisticated U.S. Navy underwater acoustic listening systems 
to conduct civilian research and monitor marine mammal 
movements. Based on our experience with the Foundation so far, 
we believe these are some of the general areas that we should 
focus on with the Foundation in the future. Rather than review 
all of NOAA's existing projects with the Foundation, I will 
present a few examples to illustrate some of the strengths, 
opportunities, and limitations that we've found in working with 
the Foundation on conservation and management issues.
    Coastal habitat restoration is one of the areas where 
significant opportunities for increased private-public 
partnerships through the Foundation are expected. There are 
many successful, ongoing projects in this area. For example, 
the Mid-Coast Salmon Restoration Project will support 90 stream 
enhancement projects along the mid-coast of Oregon to improve 
habitat for coho salmon, steelhead, and cutthroat trout--all of 
which are listed under the Endangered Species Act. The projects 
will take place on state, private agricultural, and timber 
lands using materials and equipment volunteered by landowners 
together with personnel and other resources from the Oregon 
Department of Fish and Wildlife. Timber companies, foundations, 
community groups and the state have provided $200,000 in 
nonFederal funds to leverage $100,000 in Federal resources.
    Similarly, an initiative is underway to restore salmon 
habitat in California using $1 million in Federal funds from 
NOAA and the Bureau of Reclamation. So far this program has 
attracted almost $2 million in nonFederal matching dollars for 
17 projects involving many different partners including private 
land owners, lumber companies, the Pacific Coast Federation of 
Fisherman Associations and other business groups, environmental 
organizations, and agencies at county and state levels.
    On the east coast, $50,000 in Federal funds have helped 
attract and leverage $116,000 in nonFederal matching funds for 
the Maine Atlantic Salmon Recovery Initiative. The first phase 
of this long-term project will help restore native Atlantic 
salmon populations in several Maine rivers. Partners in this 
project include the Atlantic Salmon Federation, the State of 
Maine, and a consortium of timber companies and conservation 
organizations. The Atlantic salmon is currently being 
considered for listing under the Endangered Species Act.
    The Foundation has also been successful in supporting coral 
reef conservation projects. This is another area where 
significant future opportunities exist for additional private-
public partnerships. In the past year, the Foundation matched 
$300,000 in funds from NOAA with $200,000 in private funds for 
19 projects addressing coral conservation issues. Currently, 15 
projects are underway to strengthen local-level monitoring, 
education, management and other elements of the U.S. Coral Reef 
Initiative in the American Samoa, Hawaii, Guam, Northern 
Marianas, Puerto Rico, and the Virgin Islands.
    Other coral-related projects indude the first comprehensive 
assessment of coral reef resources in the U.S. western Pacific 
region, restoration of deep-water coral reefs off the coast of 
Florida that are nursery grounds for important commercial fish 
species, and support for the successful 1997 national public 
awareness campaign for the 1997 International Year of the Coral 
Reef. These efforts were made possible through many partners, 
including members of the dive industry, the American Zoo and 
Aquarium Association, several major foundations, communities, 
businesses, and other organizations.
    The success of these projects has helped us begin to 
identify the areas of interest and types of projects best 
suited for the NOAA and the Foundation to pursue in the future. 
Coral reefs, fisheries, habitat restoration, and education 
programs to in-

crease understanding of the value of our coasts and ocean 
resources are areas important to NOAA and fertile topics for 
these kinds of private-public partnerships. We hope to pursue 
these general themes with the Foundation in fiscal year 1998.
    We have already begun discussions on possible private-
public partnerships to support a national public awareness 
campaign on oceans as part of the 1998 International Year of 
the Ocean. This might begin to address some of the Chairman's 
interests and concerns for the Year of the Ocean effort, and 
help to implement some of the policies in H.C.R. 131 
recognizing the importance of the world's oceans.
    Regarding specific provisions in H.R. 2233, the Coral Reef 
Conservation Act of 1997, NOAA suggests using the Foundation as 
an alternative to the ``Coral Reef Conservation Fund'' proposed 
in H.R. 2233 as a more easily administered mechanism to receive 
appropriations and/or private donations for use by the 
Secretary of Commerce for coral conservation projects. NOAA 
strongly supports the general intent of H.R. 2233 to assist in 
the conservation of coral reefs but believes that Congress has 
already created a vehicle--the Foundation--to accept private 
donations and Federal appropriations, and create public-private 
partnerships of the type described in the Coral Reef 
Conservation Act of 1997. Given NOAA's growing and successful 
relationship with the Foundation, we encourage the Committee to 
seriously consider using the Foundation in this role instead of 
proceeding with H.R. 2233, as ordered reported.
    One of the limitations we've found in working with the 
Foundation is that unlike the U.S. Fish and Wildlife Service 
that receives the bulk of its funds for work with the 
Foundation through direct appropriations, NOAA identifies funds 
from program base funds for specific projects with the 
Foundation. Consequently, funding is on an ad hoc basis. It is 
difficult for the Foundation to plan for and provide the staff 
and resources necessary to fully pursue projects with NOAA. 
While we have made funds available on a limited basis through 
cooperative agreements, it is unclear from year to year what 
NOAA will be able to make available for the Foundation for 
these important public-private partnerships.
    Finally, NOAA supports the amendments in H.R. 2376 
including increasing the size of the Foundation's board and 
expanding the board's composition to include four members that 
are knowledgeable and experienced in ocean and coastal 
resources conservation. We do have an additional suggestion, 
however. Because NOAA's involvement with the Foundation 
involves several of the Commerce Department's Line and Program 
Offices such as the National Ocean Service, the Coastal Ocean 
Program, the Office of Oceanic and Atmospheric Research--and 
not just the National Marine Fisheries Service--we recommend 
that the Under Secretary for Oceans and Atmosphere be the ex 
officio member on the Foundation's board, and not the Assistant 
Administrator for Fisheries as listed in the current bill.
    In conclusion, the Foundation is a unique mechanism and 
important tool for NOAA to help build public-private 
partnerships and leverage limited Federal dollars. We believe 
we are well on our way to identifying with the Foundation areas 
of significant opportunity where real results may be achieved 
through creative partnerships with the private. These are 
opportunities we can not afford to miss. Thank you for the 
opportunity to provide input on H.R 2376. I would be happy to 
take any questions.
                                ------                                


   Examples of Current Projects with the National Fish and Wildlife 
   Foundation, National Oceanic And Atmospheric Administration, U.S. 
                         Department of Commerce

DESCRIPTION OF PROJECTS:

1. Mid-coast salmon habitat restoration project
    Support habitat restoration in 90 salmon streams in Oregon 
through partnership between Oregon Wildlife Heritage 
Foundation, Oregon Dept Fish and Wildlife, Oregon Dept 
Forestry, and various timber companies. Will benefit coho 
salmon, steelhead and cutthroat trout. Projects on private and 
public lands. Landowners providing personnel, materials, and 
equipment. Matching funds from numerous timber companies and 
foundations.

2. Grassroots California salmon initiative (17 projects to 
date)
    17 projects approved to date to restore salmon habitat in 
California. Another request for proposals will be conducted. 
Currently matching 1:1 Federal to nonFederal dollars. Some 
projects will conduct actual stream habitat restoration; others 
information collection or education and outreach. Many 
different partners providing matching funds including private 
land owners, lumber companies, fisherman associations, other 
business groups, environmental organizations and agencies at 
state and local level.
    Match: Many nonFederal partners (listed below); additional 
Federal funds from DOInterior/Bureau of Reclamation.

NONFEDERAL MATCH/PARTNERS INCLUDE:

    Five private landowners on Cummings Creek
    Pacific Lumber Company
    Louisiana Pacific Lumber
    Georgia Pacific
    Eel River Sawmills
    Sempervirens Fund
    California Trout
    Trout Unlimited
    Pacific Coast Federation of Fishermen Associations
    Dean Witter Foundation
    Inverness Foundation
    Patagonia Incorporated
    DW Alley and Associates
    Balance Hydrologic
    Golden Gate National Park Association
    California Department Fish and Game
    California Department of Forestry and Fire Protection
    California Commission Salmon Stamp
    Santa Cruz County Resource Conservation District
    Mateo County Resource Conservation District
    Sonoma County Water Agency
    Public Works Department
    Cantara Trust Council

3. Recovery of Atlantic salmon in downeast Maine
    First phase of long-term project to restore native Atlantic 
salmon populations in 7 Maine Rivers. Project will support 
construction of fish weir to collect biological data and 
protect native stocks, public awareness campaign, literature 
search for information, and habitat restoration.
    Match/Partners: Variety of timber companies, communities 
and foundations.

4. Strengthening local level coral reef initiative activities
    Support 15 projects to increase local-level education, 
monitoring and management efforts concerning coral reefs. 
Projects in U.S. areas with coral reefs including American 
Samoa, Hawaii, Guam, Northern Marianas, Puerto Rico and the 
Virgin Islands.
    Match/Partners: Different partners/match for each project 
from local organizations and foundations. DOInterior also 
provided portion of match.
    Project locations and subjects:

    1. American Samoa: Educational video on conserving American 
Samoa's coral reefs
    1. N. Mariana: Education and outreach in support of local 
coral reef stewardship initiatives
    2. Guam: Coral recruitment/reproduction study
    3. Guam: Coral reseeding experiments
    4. Guam: Distribution of coral reef education/conservation 
video
    5. Puerto Rico: Technical workshop on coral reef monitoring
    6. Virgin Islands: Coral Reef Education video
    7. Hawaii: Establish coral reef network on Internet for 
education and research
    8. Hawaii: Education and outreach on Maui's coral reefs
    9. Hawaii: Coral awareness video
    10. Hawaii: Poster and signs for reef protection
    11. Hawaii: Teacher training in low-impact coastal field 
trips and CD-ROM materials
    12. Hawaii: Inventory catalog of Hawaii's coral reefs
    13. Hawaii: Establish a model for community involvement in 
coral monitoring
    14. Hawaii: A guide to Hawaii's coral reefs to promote 
responsible stewardship

5. Regional workshop on CITES implementation on corals
    The U.S. is the world's largest importer of coral products. 
80 to 90 percent of coral products come from Indonesia and 
other parts of the western Pacific. Most corals are listed 
under the Convention on International Trade in Endangered 
Species (CITES) and require specific export permits certifying 
sustainable harvests for import to the U.S. This project will 
provide information and training in coral identification, CITES 
regulations, and sustainable management of coral reef 
ecosystems to officials from trade and natural resource 
agencies in Indonesia. Information will be provided through a 
workshop to develop abilities of local managers, export agents 
and other officials to identify coral species and determine if 
legal collection and export criteria are met prior to issuing 
collection and export permits.
    Matching Funds/Partners: The Nature Conservancy

6. Assessment of coral reef resources in the U. S. western 
pacific
    Support coral experts in first major assessment of coral 
resources in U.S. western Pacific (Hawaii, American Samoa, 
Northern Marianas etc.). Study will assess state of coral reef 
resources, use of coral resources, threats to coral resources, 
and success of current management efforts. Report will be very 
useful to government and non-governmental resource managers.
    Match: Fast timeline required action before match could be 
found.

7. Conservation and sustainable use of coral reef ecosystems
    Three projects have been identified. First project will 
allow partners to provide education and information on coral 
reef stewardship to visitors to Caribbean coral-reef reserve in 
Dominican Republic. Second project will support education and 
training in sustainable coral reef management to reef-dependent 
communities Palau. Third project will support restoration and 
monitoring of deep-water coral reef off northern coast of 
Florida. Reef is nursery ground for important commercial and 
recreational fisheries species and has been devastated by 
fishing gear. NOAA/Florida State University scientists 
conducting work.
    Match: The Nature Conservancy provided match for first two 
projects; Packard Foundation providing match for third project.

8. Cooperative efforts to implement Nat. Habitat Plan
    Support workshops and literature searches to provide 
additional information (e.g., gear impacts on fisheries 
habitat) for use in National Habitat Plan.
Match: World Wildlife Fund.

9. Reducing impacts of nonindigenous species on marine 
ecosystems
    Prevention and early detection of introductions are the 
most effective measures to control the spread of nonindigenous 
species. If introduced species are allowed to become 
established, they can have significant negative impacts on 
natural resources and coastal economies. An essential part of 
preventing and detecting introduced species is identifying 
them. Scientists and others need training in species 
identification to be effective in control programs. This 
project will provide fellowships for graduate students working 
on the identification, prevention and control of nonindigenous 
species in coastal and marine ecosystems.
    Match: Academic institutions provide match.

10. Valuation of highly migratory species recreational 
fisheries: Bluefin Tuna
    Provide information on recreational value of highly 
migratory species especially Bluefin tuna in mid-Atlantic 
region.
    Match/partners: American Sportfishing Association.

11. White seabass enhancement hatchery: San Diego, CA
    Support construction of additional facilities at existing 
hatchery in San Diego, California. Will benefit populations of 
native white seabass, an important recreational fishery off 
California.
    Match/Partners: Hubbs-Sea World and others

12. National Ocean Observatory
    Test the utility of using sophisticated U. S. Navy acoustic 
equipment in the Atlantic for marine mammal and other research.
    Match/partners: U.S. Navy contributing resources in 
addition to other partners.

13. Regional Shark Conservation Plans
    Will conduct 2 workshops to develop shark conservation 
information and plans for U.S. Atlantic and Pacific regions. 
Information and plans useful to Fishery Management Councils, 
states and other managers. Participants mostly scientists and 
managers from academia, resource management agencies.
    Match/partners: WWF.
                                ------                                


   Statement of Gary J. Taylor, Legislative Director, International 
               Association of Fish and Wildlife Agencies

    Thank you Mr. Chairman for the opportunity to appear before 
the Subcommittee to share with you the Association's 
perspectives on the National Fish and Wildlife Foundation. I am 
Gary J. Taylor, Legislative Director of the Association, and I 
bring to you today the support of the Association for the 
National Fish and Wildlife Foundation, and, in general, for 
H.R. 2376 providing for its reauthorization. The Association 
has a long-standing interest and involvement in the Foundation 
and similar endeavors to combine private and industry money to 
help stretch Federal and state dollars to accomplish much 
needed fish and wildlife conservation work. We encourage you to 
continue to work with NFWF to strongly consider the merits of 
some of the recommendations they have offered for further 
improvements to H.R. 2376.
    The International Association was founded in 1902 and is a 
quasi-governmental organization of public agencies charged with 
the protection and management of North America's fish and 
wildlife resources. The Association's governmental members 
include the fish and wildlife agencies of the states, 
provinces, and Federal Governments of the U.S., Canada and 
Mexico. All fifty states are members. The Association has been 
a key organization in promoting sound resource management and 
strengthening Federal, state and private cooperation in 
protecting and managing fish and wildlife and their habitats in 
the public interest.
    It is for these reasons that the International Association 
is appearing before you today to discuss the National Fish and 
Wildlife Foundation. The Foundation is known for forging 
effective partnerships between the public and private sectors 
to provide some on the ground solutions to fundamental natural 
resource problems. These cooperative endeavors not only help 
get much needed work done but provide continuing cooperation 
between groups that may be traditional competitors or even 
opponents. The Association has followed the work of the 
Foundation over the years and is aware of the benefits for the 
nation's fish and wildlife resources that the Foundation has 
provided. One of our Directors, Willie Molini, Director of 
Wildlife in Nevada, served for several years on the 
Foundation's board.
    The Foundation invests in solutions to natural resource 
problems by awarding challenge grants. The combined resources 
from Foundation partnerships undergird effective conservation 
protects. Simply put, the Foundation probably exemplifies the 
partnership concept than the many other ``partnerships'' which 
have become so fashionable today. Let me just give you a few 
numbers which should speak to this effectiveness; since 1986 
the Foundation has leveraged Federal dollars with private and 
state dollars to result in grants that have totaled $268 
million for fish and wildlife conservation projects. In the 
burdened and cash-strapped world of state fish and wildlife 
agendas, this represents a crucially important avenue for 
getting important conservation work done that would unlikely be 
done without the assistance of the Foundation. The Association 
enthusiastically supports leveraging funds to increase the 
buying power of decreasing conservation dollars. Quite simply, 
it makes good business sense, and is good for conservation as 
well.
    Among the fine examples of the Foundation's effectiveness 
has been its work with state fish and wildlife agencies in the 
North American Waterfowl Management Plan. From the outset of 
this landmark plan between the United States and Canada, the 
Foundation and its Board has made the Plan and wetlands 
conservation a priority. It was the Foundation which initiated 
efforts to raise and transfer funds for wetland preservation in 
Canada known as the ``step'' program. Between 1988 and 1992 
more than $40 million was generated with Foundation assistance, 
to acquire, improve and enhance 500,000 acres of wetlands 
wildlife habitat in Canada. Because of these efforts the 
Foundation was instrumental in launching the NAWMP, arguably 
one of the continent's most successful conservation 
initiatives. The Foundation was farsighted in using some of the 
first Congressional appropriations to ``jump start'' the North 
American at a time when skeptics were sure that state and 
Federal wildlife managers were not committed to providing funds 
for the continent-wide management of waterfowl. Through its 
continued leadership, the Foundation, along with state fish and 
wildlife agencies and several other conservation partners such 
as Ducks Unlimited and The Nature Conservancy, has supported 
prompts in 34 states, ranging from acquisitions and habitat 
restoration to public education and outreach projects.
    The Foundation has also provided important cooperative 
leadership for the ``Partners in Flight'' conservation program 
for neotropical migratory songbirds by helping bring together 
Federal and state government agencies, and nongovernmental 
organizations to coordinate and expand efforts for protection 
and management of songbirds and raptors. Through ``Partners in 
Flight'' an unparalleled nationwide conservation program has 
been successfully launched; all 50 state fish and wildlife 
agencies are involved. Their matching grants program has 
allowed some of these states the opportunity to augment or 
develop conservation actions to halt the decline of over 250 
species.
    The Foundation has also played a significant role in the 
Partnerships for Wildlife Act assisting state agencies with 
obtaining matching grants for conservation projects related to 
fish and wildlife not hunted or fished or on the endangered 
species list. There are over 1,800 species these grants will 
aid, many of which have been neglected for years due to limited 
state and Federal funds.
    These are only a few examples of the Foundation's 
conservation efforts. The Foundation is also active in 
fisheries, leadership training, and wildlife and habitat con-

servation throughout the U.S. All of this, I believe, clearly 
points out that the National Fish and Wildlife Foundation is 
not only effective, but innovative, aggressive and well worth 
the money. Simply put, it is a shining example of a Federal-
state-private cooperative program that works.
    I'd like to now suggest a couple of ways to improve 
effectiveness of the National Fish and Wildlife Foundation. We 
believe there are basically two ways to improve the 
Foundation's efficacy: first by continuing to appoint 
experienced leaders induding a state fish and wildlife agency 
head to the Board, and second through additional appropriations 
for the Foundation. H.R. 2376 can facilitate addressing both of 
these solutions.
    At the Foundation's outset, as I mentioned earlier, Mr. 
William Molini, the state fish and wildlife agency director 
from the State of Nevada, was a member of the Board. The 
International Association of Fish and Wildlife Agencies 
believes that the inclusion of a state director on the 
Foundation's Board is imperative. State agencies are at the 
forefront of fish and wildlife conservation and are usually 
aware of needs long before the private sector becomes aware of 
a specific problem. Having an agency director on the Board will 
allow the Foundation to continue to be at the cutting edge of 
fish and wildlife resources management issues. Due to the 
Foundation's many projects with state fish and wildlife 
agencies, and the states management authority for many of these 
resources, we believe that the Subcommittee should consider 
advising the Secretary of Interior that the appointment of a 
state director to the Board is important and justified. 
Certainly with the expanded membership of the Board of 
Directors from 15 to 22 as contemplated in H.R. 2376, the 
appointment of a State Fish and Wildlife Director should be 
given strong consideration by the Secretary.
    To improve effectiveness we also believe that the 
Foundation, if given more Congressional appropriations, will 
continue to multiply Federal dollars with the private sector 
dollars to improve the nation's fish and wildlife resources. 
Increasing the capacity for partnerships is a sound fiscal 
investment. The International Association enthusiastically 
supports such an increase and has consistently testified for 
such funding before the appropriations committee. We support 
NFWFs request that H.R. 2376 expand over four years the 
authorization for appropriations to $40 million to enable them 
to achieve further conservation successes.
    In conclusion, Mr. Chairman, the Foundation represents an 
example of a partnership that works. For a relatively modest 
investment, the nation's fish and wildlife resources are being 
conserved and their management enhanced. From the standpoint of 
the state fish and wildlife agencies this is a shining example 
of good government. Thank you and I would be happy to answer 
any questions the Subcommittee may have.
                                ------                                


   Statement of E.F. Ahnert, President, Exxon Education Foundation, 
          Manager, Corporate Contributions, Exxon Corporation

Mr. Chairman and Members of the Subcommittee:
    It is an honor to be here today to speak to you on behalf 
of Exxon Corporation regarding our activities with the National 
Fish and Wildlife Foundation (NFWF). My name is Ed Ahnert. I am 
president of the Exxon Education Foundation and manager of the 
company's corporate contributions program. I'd like to tell you 
about our relationship with the National Fish and Wildlife 
Foundation and the reasons why we think it is a particularly 
effective organization.
    Exxon has been making environmental conservation grants for 
over a quarter of a century. We have enjoyed a close working 
relationship with the National Fish and Wildlife Foundation 
since l99l. Since 1995, the majority of our work with the 
Foundation has been through the Save The Tiger Fund, which we 
jointly established to serve as a vehicle to channel both Exxon 
and public dollars into an international effort to help save 
tigers in the wild.
    The tiger has symbolized Exxon and its products for most of 
this century. The idea for the Save The Tiger Fund arose as our 
awareness grew of the threats to the survival of tigers in the 
wild. At the turn of the century, about 100,000 tigers roamed 
the Asian continent, especially in Russia, India and Southeast 
Asia. Today, it is estimated that fewer than 7,500 tigers 
survive in the wild, victims of poaching and habitat loss. 
Three of eight species in existence in 1900 are now extinct. 
All five remaining subspecies are endangered or critically 
endangered. Some observers believe the tiger will be extinct 
within a few decades.
    In 1995, we consulted with tiger conservation experts, who 
indicated that an infusion of funds into thoughtful, well-
designed projects could help save the tiger from extinction in 
the wild. In cooperation with the National Fish and Wildlife 
Founda-

tion, we set up a framework to bring Exxon's and the public's 
resources to initiatives selected by a council of wildlife 
conservation and tiger experts. Almost exactly two years ago, 
Exxon pledged $5 million over five years to tiger conservation 
and, together with the National Fish and Wildlife Foundation, 
launched the Save The Tiger Fund.
    The Fund has raised over $3.5 million since its inception, 
of which more than $500,000 has been contributed by the public. 
Forty-one projects have been funded, most of which are based in 
tiger range countries. These projects have been reviewed and 
approved by the Save The Tiger Fund Council, which represents 
international conservation organizations, the U.S. Fish and 
Wildlife Service, zoos and research facilities. The National 
Fish and Wildlife Foundation solicits project proposals, 
stewards the grants, and handles accounting for the Fund.
    We are starting to see some signs of success. The 
population of Siberian tigers in Far Eastern Russia appears to 
have stabilized and may be increasing slightly. In Royal 
Chitwan National Park in Nepal, habitat is being added and the 
critical factors for the survival of endangered animal 
populations have been identified, such as buffer zones between 
populated and wildlife areas, an engaged community and a 
mechanism for the local population to benefit from ecotourism. 
Projects in India and Far Eastern Russia have helped to thwart 
poachers by providing accommodations, vehicles and/or uniforms 
for field rangers.
    Apart from the Save The Tiger Fund, since 1991 we have 
contributed over $680,000 to fifteen National Fish and Wildlife 
Foundation projects.
    From 1991 to 1993, Exxon contributed a total of $125,000 to 
a study of the effects of habitat depletion in Central America 
on North American migratory birds. From 1992 to 1994, we gave 
$30,000 in grants to the Cornell University Laboratory of 
Ornithology to match Foundation funds for a project to monitor 
forest fragment use by tanagers, a migratory songbird. In 1993, 
we contributed $25,000 to the Foundation for a multinational 
study of the humpback whale. Also in 1993, we gave $15,000 to 
the Copper River Delta Institute in Alaska for a study of 
shorebirds. We also provided matching funds for a project to 
provide summer jobs for minority college students in Federal 
and state environmental programs and contributed to a wetlands 
restoration project in Texas.
    In the years 1992 through 1994, we contributed a total of 
$225,000 in matching funds for a field study of Siberian tigers 
conducted by the Hornocker Wildlife Institute.
    This is just a sample of the projects on which we have 
worked with the National Fish and Wildlife Foundation. Most of 
our contributions have been handled as matching grants for 
Federal funds and often were also matched by other 
organizations, so that government dollars typically were 
leveraged 100 percent and sometimes two to one.
    We selected the National Fish and Wildlife Foundation as a 
partner in the Save The Tiger Fund because of this long-term 
relationship and certain specific qualities, which I'd like to 
enumerate for you:

        <bullet> The Foundation has built an impressive network of 
        conservation experts and organizations. By so doing, it brings 
        a broad international spectrum of knowledge and resources to 
        environmental projects that most other groups can't offer. This 
        has been an important asset for the Save The Tiger Fund 
        program.
        <bullet> The Foundation provides a forum where business, 
        government and non-profit organizations can work together 
        harmoniously on conservation projects. By acknowledging that 
        human activity and preservation of the environment have to co-
        exist, it operates in an area of shared values and on strong 
        middle ground. It is an approach we are comfortable with, and 
        one that allows the application of funds from a wide variety of 
        sources.
        <bullet> NFWF has a talented and experienced staff whose 
        judgment and project management skills we have come to respect.
        <bullet> Relative to other non-profit organizations of 
        comparable size, the Foundation's overhead costs for activities 
        such as administration and fundraising are low.
    In sum, we believe the National Fish and Wildlife 
Foundation fills a unique and important role in environmental 
conservation. We have worked with the Foundation on many 
projects, and believe the collaboration has helped channel our 
resources to projects where they will do the most good. We 
appreciate the opportunity to describe our experience and to 
express our support for this worthwhile organization.
    Mr. Chairman and members of the Subcommittee, we appreciate 
this opportunity to offer testimony concerning the 
reauthorization of the National Fish and Wildlife Foundation 
and H.R. 2376, the National Fish and Wildlife Foundation 
Establishment Act Amendments of 1997.
                                ------                                


      Statement of Don Taylor, Vice President, Sustainability and 
            Stewardship, Champion International Corporation

    My name is Don Taylor and I am Vice President of 
Sustainability and Stewardship for Champion International 
Corporation. Champion is one of the nation's largest 
manufacturers of pulp, paper, and forest products--owning more 
than 5.3 million acres of forest land in 17 states.
    My current responsibilities include management of forestry-
related environmental issues and most recently I managed all of 
Champion's U.S. timberlands. The business of forest management 
is complex at best. To be successful, we and others must invest 
in new research to determine the best ways to manage our 
forests to ensure protection for all outputs and life forms of 
the forest.
    Champion has had a long and productive relationship with 
the National Fish and Wildlife Foundation that has allowed our 
company to participate in many beneficial environmental 
projects. I would like to share a few of these success stories 
with you today.
    Champion joined with the Foundation and Tennessee Tech 
University, to conduct a study in the mountains of eastern 
Tennessee to evaluate the feasibility, relative costs, and 
effectiveness of different aquatic survey methods. We feel it 
is important to know the status of all biological resources 
that occur on our property. This study not only added to the 
available science and information base, but it also helped 
develop cost-effective methods that landowners can apply in 
their own management efforts.
    The Foundation is one of the few organizations that works 
to involve landowners. With its support, we have been able to 
elevate the status of private landowners in the conservation 
arena. With simple tools based upon sound science, we can 
empower private landowners to do their part in the overall 
effort to protect the nation's aquatic resources.
    One such tool can be found in a program created in Alabama. 
Champion and the Foundation sought to provide common-sense, 
user-friendly information directly to those who need it most--
private logging contractors, and foresters working with private 
landowners. To achieve this goal, a resource guide was created. 
Small enough to fit in your shirt-pocket, the guide identifies 
listed species in the state and provides necessary forest 
management considerations. It is successful because it is free 
of the technical and legal jargon that all to often serves to 
frighten and confuse.
    Just last week we released a similar guide for Tennessee, 
again with the Foundation's help. Like this field guide, the 
goal is simple--to put usable information in the hands of those 
people who are most likely to encounter listed species on a 
daily basis. We plan to produce similar guides for each of the 
17 states in which we operate. By taking this approach, we are 
seeking to involve all concerned citizens in the protection of 
species.
    Our success with the Foundation has encouraged a number of 
other agencies and conservation organizations to join us in 
these efforts. The Foundation has helped us with this low-tech 
approach to endangered species identification and protection 
that is building bridges rather than barriers.
    This cooperation is best illustrated in Champion's 
coordination of an industry-wide effort to foster private 
landowner cooperation for migratory song birds. First advocated 
by the Foundation through its Partners In Flight program, the 
effort has led 13 forest products companies, representing 
approximately 35 million acres of private forests, to join with 
the Foundation for bird conservation. This agreement is just 
one more example of the conservation commitments that the 
private sector can and will make. Such agreements are possible 
because of the vision and reputation of the Foundation.
    Lastly, I want to share with the Committee what Champion 
believes is one of the most promising models for conservation 
anywhere in the Nation--Project SHARE in Maine. Project SHARE, 
which stands for Salmon Habitat and River Enhancement, was 
started 3 years ago as an alternative means to the normal 
gridlock that often results with the proposed listing for a new 
species under the Endangered Species Act.
    In this case, the U.S. Fish and Wildlife Service and the 
National Marine Fisheries Service were considering a petition 
to list the Atlantic salmon as threatened or endangered 
throughout all or a portion of its range. While some of the 
advocates for listing saw a new tool to stop otherwise 
legitimate land management, private landowners and sportsmen 
saw the threats of increased management costs, declines in 
property values, and regulatory burdens.
    Project SHARE was formed by Champion and two other forest 
products companies with extensive holdings in the prime salmon 
habitat of Downeast Maine. Our goal was not to form a coalition 
to oppose listing, but rather to create a coalition to ad-

dress voluntary habitat restoration and management. Our belief 
was simple enough: by supporting the state and Federal agencies 
whose jurisdiction is the protection of the species, we could 
share ideas and alternatives to the normal regulatory 
approaches that follow species listing. This synergy would give 
the responsible agencies more options in developing flexible, 
constructive and beneficial plans.
    Today, Project SHARE boasts a long list of cooperators, 
including state and Federal agencies, universities, sportsmen's 
groups, local businesses, blueberry growers, and the 
aquaculture industry. To date, the bulk of the funds necessary 
to meet the organization's goals in research, management, and 
education have come from private landowners. However, active 
involvement and encouragement by the National Fish and Wildlife 
Foundation (i.e. keeping key interests at the table and 
significant challenge grants) have made SHARE a success beyond 
our wildest dreams.
    From these examples, I hope that Members of the Committee 
will see that Champion has found its partnership with the 
National Fish and Wildlife Foundation to be very positive. The 
Foundation is an organization that has a proven track record of 
fostering interagency cooperation and coordination. It involves 
the private sector and local communities to solve conservation 
problems from the ground up. It works toward finding solutions, 
not filing lawsuits.
    Mr. Chairman, in your letter of invitation, you have asked 
that testimony address H.R. 2376, the National Fish and 
Wildlife Foundation Establishment Act Amendments of 1997. This 
bill that you and Congressman Abercrombie have introduced, 
proposes to amend the underlying statute that created the 
Foundation in 1984 in a number of ways. While I will try to 
address several of those changes, I feel that I should leave 
the details of the language to those of you who are trained in 
that profession. Of overall importance to us though is that: 
(1) the authority of the Foundation is continued, as is 
proposed in the legislation through fiscal year 2001; (2) the 
purpose of the Foundation to administer activities that will 
further the conservation and management of fish, wildlife, and 
plant resources of the Unites States is unchanged; and (3) the 
Foundation continues to be able to accept contributions that 
are matched with Federal dollars for real, on-the-ground 
conservation projects.
    While your bill, Mr. Chairman, addresses various 
administrative improvements for the Foundation, I would like to 
comment on one aspect of that measure. It seems if you could 
eliminate, as much as possible, the political tie that the 
Foundation's board has with each administration, then 
continuity, neutrality, and the assurance of tenure for a board 
member would be provided that may assist with the overall 
administration of the Foundation.
    In closing, I would like to highlight one final benefit 
concerning the Foundation. That is its ability to leverage 
Federal funds with contributions from non-Federal partners to 
maximize the greatest return for the money invested. This is an 
example that no other conservation organization can claim. The 
Foundation has earned the respect of many of us in the forest 
products industry as a can-do organization.
    We are pleased to support its reauthorization.
                                ------                                


Statement of William C. Miller Jr., President, Malpai Borderlands Group

    It gives me great pleasure to submit to you the facts I 
know about the National Fish and Wildlife Foundation whose 
address is 1120 Connecticut Ave., NW, Suite 900, Washington, DC 
20036
    The Malpai Borderlands Group, a private nonprofit 
organization of ranchers and conservationists, received a 
challenge grant from National Fish and Wildlife Foundation of 
$76,000, which our Group was required to match with additional 
private fundraising in the amount of $304,000.
    It became quickly apparent to our board that we had a 
tremendous amount of work ahead of us to meet the challenge. 
However, we knew our program for conservation and economic 
stability in more than 800,000 acres in Arizona and New Mexico 
would require substantial new funding. The early support of 
National Fish and Wildlife Foundation gave our small new 
organization the confidence and financial push that were 
crucial to our new organization.
    Our Mission statement tells our story so well.
    ``Our goal is to restore and maintain the processes that 
create and protect a healthy, unfargmented landscape to support 
a diverse, flourishing community of human, plant and animal 
life in our Borderlands Region.
    Together, we will accomplish this by working to encourage 
profitable ranching and other traditional livelihoods which 
will sustain the open space nature of our land for generations 
to come.''
    The amazing part of this process was the fact people at the 
National Fish and Wildlife Foundation, would look at a bunch of 
cowboys, listen to what they had to say, and believe we could 
proceed into the next century with our ambitious goal. The 
judgment of National Fish and Wildlife Foundation paid off, as 
we found working with a wonderful group of people was an easy 
process and we actually were able to raise the matching funds. 
They have guided us through our continuing problems and 
challenges, and have been the main catalyst to starting our 
work on the land.
    The Malpai Group has completed the first challenge grant 
with National Fish and Wildlife Foundation and now is in the 
second round, having just been approved for a new challenge 
grant. In the rest of the testimony, I would like to describe 
several of the projects made possible through the Fish and 
Wildlife Foundation support. These include: reseeding eroded 
lands with native grasses; protecting endangered species; and 
reintroducing fire back into our Borderlands Region after 80 
years of suppression by the Federal agencies. All of these 
projects come with a price of money, time, manpower, and space.
    A basic program of ours is sponsoring scientific studies to 
help us understand the reason for invasion of woody species in 
our grassland and for the general changes in our grazing lands. 
National Fish and Wildlife funding is helping sponsor teams of 
scientists from the University of Arizona, University of New 
Mexico and many others to set up long term research and 
monitoring projects to help guide our land management work.
    The creation of grassbanking is a project of ours which has 
received widespread national attention. Several ranches in the 
area have been under severe drought. The Malpai Borderlands 
Group was able to purchase grazing rights on a large ranch in 
our area, and trade this forage to four ranchers in our area 
for conservation easements over their private land which Malpai 
holds to prevent subdivision. These ranchers then moved their 
herds onto the grassbank which allowed them to rest their own 
land and do other conservation work on their ranches for a 
period of up to five years. This process has protected nearly 
sixty thousand acres of open space ranch land of which twenty 
thousand acres are private fee lands. Three ranchers are now 
completing the grazing contracts and will be moving their 
cattle home.
    An example of an endangered species project helped by the 
National Fish and Wildlife Foundation grants involved the 
endangered Chiricahua Leopard frog. To save its habitat on his 
private land, a neighboring rancher hauled water for several 
years to drying ponds crucial for the frog's survival. The 
Malpai Borderlands Group helped this rancher to find funding to 
drill two wells and install pipelines which jointly help the 
frog, other wildlife and the livestock on this desert ranch.
    In a third project, the Malpai Group worked with the 
Arizona State Land Department and the Arizona Department of 
Game and Fish to root plow and eradicate woody invasive plants, 
and replace them with native grass seeded on three hundred 
acres.
    The Malpai Group has successfully completed two prescribed 
burns across multiple ownership lands, The first was a major 
undertaking as it was partially in a Wilderness Study Area, on 
Bureau of Land Management land, it also affected four private 
land owners, the U.S. Forest Service, two state land 
departments. The prescription for this burn was completed in 
less than a year. The second fire was done on twelve thousand 
five hundred acres, which affected three private landowners, 
Arizona State Land and the U.S. Forest Service. It took us 
three years to overcome the necessary regulations to do this 
burn. It was very successful and with the process behind us we 
are working toward a programmatic plan to do both prescribed 
burning and work with natural ignited fires. The Malpai Group 
paid for the state and private land cost for buying this fire.
    With the sighting of a Mexican Jaguar in our Borderlands, 
the work to protect is now listed species has opened a new 
level of involvement with the ranchers in the region. The 
Malpai Group has established a depredation fund to pay for 
livestock which may be lost to the Jaguar. A working 
relationship with scientists in Mexico is evolving. The project 
is now involving us in conservation work in two countries. This 
is a new venture and we are hoping to influence additional 
conservation work in Mexico.
    What we have found it that it is amazing what can happen 
when a group of land mangers sits down with the agency people, 
ask a few environmentalists to join in, and talk about allowing 
natural fire to burn in a large unfragmented landscape. With 
funding, hard work and an open mind we are working to have a 
proud place for future generations in the Borderlands region in 
Southeast Arizona, Southwest New Mexico and Mexico. With many 
projects completed, it is apparent that an alternative to 
litigation with the ability to spend the money on the ground, 
is the best process to conserve our natural resources for the 
future.
    The National Fish and Wildlife Foundation is to be 
congratulated for joining in as partners with private 
landowners like us. There are many other conservation 
opportunities across the West and beyond which can become 
realities once private landowners have the confidence to take 
up this work with their own hands. We have found The National 
Fish and Wildlife Foundation to be good people to work with in 
our region, and feel that others will find them to be the same 
in their area of the country.
                                ------                                


 Statement of Turnstone Ecological Research Associates, Ltd., Moscow, 
                                 Idaho

Dear Congressman Saxton:
    On behalf of all the partners and staff members associated 
with Turnstone Ecological Research Associates, Ltd., I am 
writing in support of the reauthorization of the National Fish 
and Wildlife Foundation. We credit the National Fish and 
Wildlife Foundation for helping us forge strong partnerships 
with the forest products industry and Federal agencies such as 
the U.S. Forest Service and U.S. Fish and Wildlife Service 
throughout the Pacific and Inland Northwest. Through this 
association, we have erased the ownership boundaries that have 
long served as barriers to conservation efforts. We feel 
confident that we are moving toward the day when we can avoid 
declines in bird populations long before they become a serious 
threat to avian survival.
    As a new company in north Idaho (established in 1994), 
challenge grants from the National Fish and Wildlife Foundation 
have allowed our organization to gain a foothold in the region 
and expand the scope of our efforts. We now employ three full 
time staff and 15 seasonal biologists in north Idaho and cover 
over 5 million acres of the north Idaho region. We are also 
able to support the training and field efforts of 3 graduate 
students at the University of Idaho.
    The National Fish and Wildlife Foundation has assisted us 
in establishing and maintaining peer support, and they have 
encouraged us to pursue joint research activities. As a result, 
Turnstone has recently joined forces with the Sustainable 
Systems Institute, Potlatch Corporation, Boise Cascade, and 
Plum Creek Timber in an unparalleled study of the nesting 
success of songbirds in early successional forests. We strongly 
support the efforts of the National Fish and Wildlife 
Foundation. We urge you to stand with us in support of 
reauthorization for this valuable foundation. They have helped 
us to grow, to become a part of the north Idaho rural economy, 
and to stand as leaders in the conservation field.
    Thank you!
    Sincerely,
                Patricia J. Heglund, Ph.D.
                    President and Senior Ecologist
                                ------                                


 Statement of Rex Sallabanks, Ph.D., Director, Sustainable Ecosystems 
                       Institute, Meridian, Idaho

Dear Congressman:
    I am writing on behalf of the Sustainable Ecosystems 
Institute (SEI), a non-profit research organization in the 
Pacific Northwest, to express our sincere and enthusiastic 
support for the reauthorization of the National Fish and 
Wildlife Foundation (NFWF). SEI has received research grants 
from NFWF for the past three consecutive years that have 
allowed us to conduct important research on the effects of 
forest management on bird populations in Idaho.
    Given that sustainable wood fiber production and timber 
harvest are essential to the prosperity of the people, rural 
communities, and regional economy here in Idaho, our research 
has many important implications and potential benefits for the 
people of this state. In addition, as a result of our work, we 
are better equipped to offer management recommendations that 
might revert declines in bird species and populations before 
they become threatened or endangered. Such proactive management 
has the potential to save millions of dollars, entire 
economies, and the wildlife itself. None of this would be 
possible without the support of NFWF.
    Partnerships such as those between SEI and NFWF are 
invaluable if we wish to continue to research, manage, and 
conserve the integrity and function of forest ecosystems (and 
the bird populations that they contain) in the western U.S. 
Once again, therefore, we wish to reiterate our support of the 
reauthorization of NFWF on September 25. Your consideration of 
this letter and acknowledgment of our support is most 
appreciated.

[GRAPHIC] [TIFF OMITTED] T6178.001

[GRAPHIC] [TIFF OMITTED] T6178.002

[GRAPHIC] [TIFF OMITTED] T6178.003

[GRAPHIC] [TIFF OMITTED] T6178.004

[GRAPHIC] [TIFF OMITTED] T6178.005

[GRAPHIC] [TIFF OMITTED] T6178.006

[GRAPHIC] [TIFF OMITTED] T6178.007

[GRAPHIC] [TIFF OMITTED] T6178.008

[GRAPHIC] [TIFF OMITTED] T6178.009

[GRAPHIC] [TIFF OMITTED] T6178.010

[GRAPHIC] [TIFF OMITTED] T6178.011

[GRAPHIC] [TIFF OMITTED] T6178.012

[GRAPHIC] [TIFF OMITTED] T6178.013

[GRAPHIC] [TIFF OMITTED] T6178.014

[GRAPHIC] [TIFF OMITTED] T6178.015

[GRAPHIC] [TIFF OMITTED] T6178.016

[GRAPHIC] [TIFF OMITTED] T6178.017

[GRAPHIC] [TIFF OMITTED] T6178.018

[GRAPHIC] [TIFF OMITTED] T6178.019

[GRAPHIC] [TIFF OMITTED] T6178.020

[GRAPHIC] [TIFF OMITTED] T6178.021

[GRAPHIC] [TIFF OMITTED] T6178.022

[GRAPHIC] [TIFF OMITTED] T6178.023

[GRAPHIC] [TIFF OMITTED] T6178.024

[GRAPHIC] [TIFF OMITTED] T6178.025

[GRAPHIC] [TIFF OMITTED] T6178.026

[GRAPHIC] [TIFF OMITTED] T6178.027

[GRAPHIC] [TIFF OMITTED] T6178.028

[GRAPHIC] [TIFF OMITTED] T6178.029

[GRAPHIC] [TIFF OMITTED] T6178.030

[GRAPHIC] [TIFF OMITTED] T6178.031

[GRAPHIC] [TIFF OMITTED] T6178.032

[GRAPHIC] [TIFF OMITTED] T6178.033

[GRAPHIC] [TIFF OMITTED] T6178.034

[GRAPHIC] [TIFF OMITTED] T6178.035

[GRAPHIC] [TIFF OMITTED] T6178.036

[GRAPHIC] [TIFF OMITTED] T6178.037

[GRAPHIC] [TIFF OMITTED] T6178.038

[GRAPHIC] [TIFF OMITTED] T6178.039

[GRAPHIC] [TIFF OMITTED] T6178.040

[GRAPHIC] [TIFF OMITTED] T6178.041

[GRAPHIC] [TIFF OMITTED] T6178.042

[GRAPHIC] [TIFF OMITTED] T6178.043

[GRAPHIC] [TIFF OMITTED] T6178.044

[GRAPHIC] [TIFF OMITTED] T6178.045

[GRAPHIC] [TIFF OMITTED] T6178.046

[GRAPHIC] [TIFF OMITTED] T6178.047

[GRAPHIC] [TIFF OMITTED] T6178.048

[GRAPHIC] [TIFF OMITTED] T6178.049

[GRAPHIC] [TIFF OMITTED] T6178.050

[GRAPHIC] [TIFF OMITTED] T6178.051

[GRAPHIC] [TIFF OMITTED] T6178.052

[GRAPHIC] [TIFF OMITTED] T6178.053

[GRAPHIC] [TIFF OMITTED] T6178.054

[GRAPHIC] [TIFF OMITTED] T6178.055

[GRAPHIC] [TIFF OMITTED] T6178.056

[GRAPHIC] [TIFF OMITTED] T6178.057

[GRAPHIC] [TIFF OMITTED] T6178.058

[GRAPHIC] [TIFF OMITTED] T6178.059

[GRAPHIC] [TIFF OMITTED] T6178.060

[GRAPHIC] [TIFF OMITTED] T6178.061

[GRAPHIC] [TIFF OMITTED] T6178.062

[GRAPHIC] [TIFF OMITTED] T6178.063

[GRAPHIC] [TIFF OMITTED] T6178.064

[GRAPHIC] [TIFF OMITTED] T6178.065

[GRAPHIC] [TIFF OMITTED] T6178.066

[GRAPHIC] [TIFF OMITTED] T6178.067

[GRAPHIC] [TIFF OMITTED] T6178.068

[GRAPHIC] [TIFF OMITTED] T6178.069

[GRAPHIC] [TIFF OMITTED] T6178.070

[GRAPHIC] [TIFF OMITTED] T6178.071

[GRAPHIC] [TIFF OMITTED] T6178.072

[GRAPHIC] [TIFF OMITTED] T6178.073

[GRAPHIC] [TIFF OMITTED] T6178.074

[GRAPHIC] [TIFF OMITTED] T6178.075

[GRAPHIC] [TIFF OMITTED] T6178.076

[GRAPHIC] [TIFF OMITTED] T6178.077

[GRAPHIC] [TIFF OMITTED] T6178.078

[GRAPHIC] [TIFF OMITTED] T6178.079

[GRAPHIC] [TIFF OMITTED] T6178.080

[GRAPHIC] [TIFF OMITTED] T6178.081

[GRAPHIC] [TIFF OMITTED] T6178.082

[GRAPHIC] [TIFF OMITTED] T6178.083

[GRAPHIC] [TIFF OMITTED] T6178.084

[GRAPHIC] [TIFF OMITTED] T6178.085

[GRAPHIC] [TIFF OMITTED] T6178.086

[GRAPHIC] [TIFF OMITTED] T6178.087

[GRAPHIC] [TIFF OMITTED] T6178.088

[GRAPHIC] [TIFF OMITTED] T6178.089

[GRAPHIC] [TIFF OMITTED] T6178.090

[GRAPHIC] [TIFF OMITTED] T6178.091

[GRAPHIC] [TIFF OMITTED] T6178.092

[GRAPHIC] [TIFF OMITTED] T6178.093

[GRAPHIC] [TIFF OMITTED] T6178.094

[GRAPHIC] [TIFF OMITTED] T6178.095

[GRAPHIC] [TIFF OMITTED] T6178.096

[GRAPHIC] [TIFF OMITTED] T6178.097

[GRAPHIC] [TIFF OMITTED] T6178.098

[GRAPHIC] [TIFF OMITTED] T6178.099

[GRAPHIC] [TIFF OMITTED] T6178.100

[GRAPHIC] [TIFF OMITTED] T6178.101

[GRAPHIC] [TIFF OMITTED] T6178.102

[GRAPHIC] [TIFF OMITTED] T6178.103

[GRAPHIC] [TIFF OMITTED] T6178.104

[GRAPHIC] [TIFF OMITTED] T6178.105

[GRAPHIC] [TIFF OMITTED] T6178.106

[GRAPHIC] [TIFF OMITTED] T6178.107

[GRAPHIC] [TIFF OMITTED] T6178.108

[GRAPHIC] [TIFF OMITTED] T6178.109

[GRAPHIC] [TIFF OMITTED] T6178.110

[GRAPHIC] [TIFF OMITTED] T6178.111

[GRAPHIC] [TIFF OMITTED] T6178.112

[GRAPHIC] [TIFF OMITTED] T6178.113

[GRAPHIC] [TIFF OMITTED] T6178.114

[GRAPHIC] [TIFF OMITTED] T6178.115

[GRAPHIC] [TIFF OMITTED] T6178.116

[GRAPHIC] [TIFF OMITTED] T6178.117

[GRAPHIC] [TIFF OMITTED] T6178.118

[GRAPHIC] [TIFF OMITTED] T6178.119

[GRAPHIC] [TIFF OMITTED] T6178.120

[GRAPHIC] [TIFF OMITTED] T6178.121

[GRAPHIC] [TIFF OMITTED] T6178.122

[GRAPHIC] [TIFF OMITTED] T6178.123

[GRAPHIC] [TIFF OMITTED] T6178.124

[GRAPHIC] [TIFF OMITTED] T6178.125

[GRAPHIC] [TIFF OMITTED] T6178.126

[GRAPHIC] [TIFF OMITTED] T6178.127

[GRAPHIC] [TIFF OMITTED] T6178.128

[GRAPHIC] [TIFF OMITTED] T6178.129

[GRAPHIC] [TIFF OMITTED] T6178.130

[GRAPHIC] [TIFF OMITTED] T6178.131

[GRAPHIC] [TIFF OMITTED] T6178.132

[GRAPHIC] [TIFF OMITTED] T6178.133

[GRAPHIC] [TIFF OMITTED] T6178.134

[GRAPHIC] [TIFF OMITTED] T6178.135

[GRAPHIC] [TIFF OMITTED] T6178.136

[GRAPHIC] [TIFF OMITTED] T6178.137

[GRAPHIC] [TIFF OMITTED] T6178.138

[GRAPHIC] [TIFF OMITTED] T6178.139

[GRAPHIC] [TIFF OMITTED] T6178.140

[GRAPHIC] [TIFF OMITTED] T6178.141

[GRAPHIC] [TIFF OMITTED] T6178.142

[GRAPHIC] [TIFF OMITTED] T6178.143

[GRAPHIC] [TIFF OMITTED] T6178.144

[GRAPHIC] [TIFF OMITTED] T6178.145

[GRAPHIC] [TIFF OMITTED] T6178.146

[GRAPHIC] [TIFF OMITTED] T6178.147

[GRAPHIC] [TIFF OMITTED] T6178.148

[GRAPHIC] [TIFF OMITTED] T6178.149

[GRAPHIC] [TIFF OMITTED] T6178.150

[GRAPHIC] [TIFF OMITTED] T6178.151

[GRAPHIC] [TIFF OMITTED] T6178.152

[GRAPHIC] [TIFF OMITTED] T6178.153

[GRAPHIC] [TIFF OMITTED] T6178.154

[GRAPHIC] [TIFF OMITTED] T6178.155

[GRAPHIC] [TIFF OMITTED] T6178.156

[GRAPHIC] [TIFF OMITTED] T6178.157

[GRAPHIC] [TIFF OMITTED] T6178.158

[GRAPHIC] [TIFF OMITTED] T6178.159

[GRAPHIC] [TIFF OMITTED] T6178.160

[GRAPHIC] [TIFF OMITTED] T6178.161

[GRAPHIC] [TIFF OMITTED] T6178.162

[GRAPHIC] [TIFF OMITTED] T6178.163

[GRAPHIC] [TIFF OMITTED] T6178.164

[GRAPHIC] [TIFF OMITTED] T6178.165

[GRAPHIC] [TIFF OMITTED] T6178.166

[GRAPHIC] [TIFF OMITTED] T6178.167

[GRAPHIC] [TIFF OMITTED] T6178.168

[GRAPHIC] [TIFF OMITTED] T6178.169

[GRAPHIC] [TIFF OMITTED] T6178.170

[GRAPHIC] [TIFF OMITTED] T6178.171

[GRAPHIC] [TIFF OMITTED] T6178.172

[GRAPHIC] [TIFF OMITTED] T6178.173


</pre></body></html>
